<html>
<title> - THE FUTURE OF ENERGY IN AFRICA</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





 
                     THE FUTURE OF ENERGY IN AFRICA

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 14, 2014

                               __________

                           Serial No. 113-228

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 

                        U.S. GOVERNMENT PRINTING OFFICE
91-451PDF                    WASHINGTON : 2014
                                 
 ________________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Printing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e285928da2819791968a878e92cc818d8fcc">[email&#160;protected]</a>  
                                
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida<greek-l>       ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14 deg.                          LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida<greek-l>
LUKE MESSER, Indiana--resigned 5/
    20/14 noon deg.
SEAN DUFFY, Wisconsin<greek-l>--
    added 5/29/14 noon deg.
CURT CLAWSON, Florida<greek-l>--
    added 7/9/14 noon deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
TOM MARINO, Pennsylvania             KAREN BASS, California
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
STEVE STOCKMAN, Texas                AMI BERA, California
MARK MEADOWS, North Carolina
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Jonathan Elkind, Acting Assistant Secretary, Office of 
  International Affairs, U.S. Department of Energy...............     6
The Honorable Eric G. Postel, Assistant to the Administrator, 
  Bureau for Africa, U.S. Agency for International Development...    16
Robert F. Ichord, Jr., Ph.D., Deputy Assistant Secretary, Bureau 
  of Energy Resources, U.S. Department of State..................    24
Mr. Walker A. Williams, president and chief executive officer, 
  Leadership Africa USA..........................................    54
Ms. Dianne R. Sutherland, owner and publisher, Petroleum Africa 
  Magazine.......................................................    67

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Jonathan Elkind: Prepared statement..........................     9
The Honorable Eric G. Postel: Prepared statement.................    18
Robert F. Ichord, Jr., Ph.D.: Prepared statement.................    27
Mr. Walker A. Williams: Prepared statement.......................    57
Ms. Dianne R. Sutherland: Prepared statement.....................    69

                                APPENDIX

Hearing notice...................................................    80
Hearing minutes..................................................    81
Written responses from the Honorable Eric G. Postel to questions 
  submitted for the record by the Honorable Christopher H. Smith, 
  a Representative in Congress from the State of New Jersey, and 
  chairman, Subcommittee on Africa, Global Health, Global Human 
  Rights, and International Organizations........................    82
Written response from the Department of Energy to request for 
  information from the Honorable Karen Bass, a Representative in 
  Congress from the State of California..........................    91
The Honorable Christopher H. Smith: Statement for the record from 
  Ms. Dana Hyde of the Millennium Challenge Corporation..........    92

 
                     THE FUTURE OF ENERGY IN AFRICA

                              ----------                              


                       FRIDAY, NOVEMBER 14, 2014

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 12:59 p.m., in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. Good afternoon. The subcommittee is called to 
order. First of all, let me begin by apologizing for the 
lateness of convening this hearing. We did have votes on the 
floor and members are making their way back and I appreciate 
the patience of our witnesses and guests.
    In the 21st century, energy has become vital to modern 
societies. We all know that. We no longer have to shop for food 
each day because refrigerators keep food cold and preserve 
longer, whether in our homes, in restaurants or during the 
process of trade.
    Cell phones, computers, televisions, and other electronics 
require electrical power to allow us to lead more productive 
lives in the modern world. As we have seen, even in the Ebola 
crisis, in an epidemic, it is necessary that medicines and 
plasma be kept cold so that they don't lose their potency.
    Thus, it is both unfortunate and absolutely unnecessary 
that more than \1/2\ billion Africans, especially in rural 
areas, live without electricity. Perhaps the great irony is 
that Africa has more than enough energy capacity to join the 
rest of the world in utilizing modern technologies that require 
energy supplies. Approximately 30 percent of global oil and gas 
discoveries of the past 5 years alone have been in sub-Saharan 
Africa. Yet, currently, only 290 million out of 914 million 
Africans have access to electricity. And the total number 
lacking such access continues to rise. Bioenergy--mainly, fuel, 
wood, and charcoal--is still a major source of fuel. Hydropower 
accounts for about 20 percent of total power supply in the 
region, but less than 10 percent of its estimated potential has 
been utilized.
    This hearing today will examine the current and prospective 
impact of U.S. Government programs, such as Power Africa and 
Electrify Africa, as well private international energy 
projects. I thank our very distinguished witnesses, who I will 
introduce momentarily, for their leadership in making the dream 
of the electrification of Africa increasingly a reality.
    Last year, Chairman Royce, backed by Ranking Members Eliot 
Engel and Karen Bass and I, introduced H.R. 2548, the Electrify 
Africa Act. This legislation seeks to build the African power 
sector from increased production to more effective provision of 
energy. H.R. 2548 passed the House this past May but has not 
had action yet in the Senate.
    Days after the act was introduced, the administration--I am 
very happy to say--announced its Power Africa initiative and 
has committed up to $7.81 billion in various types of U.S. 
technical and credit assistance and other aid to build the 
capacity of the African power sector.
    It seems that every few months, there is yet another 
discovery of petroleum or natural gas in Africa. Nevertheless, 
African countries remain net importers of energy. And a 
distribution of power from the many new sources of energy in 
Africa remain unfulfilled. This constrains trade and economic 
progress, social development, and overall quality of life for 
the people of Africa. Even now, one country, South Africa, 
accounts for two-thirds of Africa's electricity generation. All 
of Africa produces less than 10 percent of the energy produced 
in the United States.
    Meanwhile, people across the continent are forced to meet 
their energy needs by gathering or purchasing charcoal or coal, 
often putting women in dangerous situations too far from home. 
Even when such fuels are safely brought back home, their use 
produces indoor pollution that all too often contributes to 
sickness and even death. The current situation cannot continue 
much longer.
    Even with 13 percent of the world's population, Africa 
represents only 4 percent of the world's energy demand. But 
this situation, thankfully, is changing. According to the 
report this year by the International Energy Agency, the IEA, 
since 2000, sub-Saharan Africa has seen rapid growth and a rise 
in energy use by some 45 percent. So that is a good trend.
    We often speak of the rise of the African economies, but 
for that rise to be truly realized, the rates of power 
generation and supply must match the growing demand for power. 
Those cell phones that are transforming all forms of commerce 
in Africa must be charged. The consumer goods the growing 
African middle class is purchasing needs electricity. Africans 
are increasingly unwilling to accept the blackouts and power 
surges that have made life so difficult for so long.
    Africans who have traveled or live somewhere else know this 
doesn't have to be their lot in life. In fact, even those that 
don't travel may have seen on TV or heard about that power is 
available elsewhere and ought to be available to them just like 
everyone else.
    During the colonial period in Africa, countries were 
limited in their industrialization, but that period has now 
long passed. It must no longer be used as a reason why African 
countries are behind in the process of industrialization or 
power generation.
    Today, this lag in power generation is more due to 
inadequate or unrealistic regulation, lack of finance for 
significant power generation projects, underinvestment in power 
generation, even when financing is available, the disconnection 
of rural populations from national and regional power grids, 
high cost for energy, and other factors. These obstacles can 
and must be overcome. They will require additional 
international collaboration, public-private partnerships, and 
the will of governments and their citizens. We will not get to 
the point we believe it is necessary overnight, but we will get 
there if we take serious measures now and work robustly to 
bring this about.
    With regular electricity, young students will be able to 
study under electrical light but, also, use computers to 
advance their studies. Homemakers will be able to keep food 
fresher with refrigerators and can stretch household income 
further. And, of course, hospitals--I personally have been in, 
as well as Greg Simpkins, our staff director for the 
subcommittee, we have been in so many hospitals where, if it 
wasn't for a generator, that hospital wouldn't even have a 
refrigerator that can keep supplies cold as they must remain 
so, particularly plasma and certain medicines.
    Our two panels today will examine international and 
national programs to achieve regular, sufficient electrical 
power in Africa and private projects to add to the supply of 
energy on the continent. The future of energy in Africa is 
brighter than it has been in the past. But, again, diligent 
efforts need to be taken; we need to seize the day.
    So I want to now yield to my good friend and colleague, Mr. 
Cicilline, for any comments he might have.
    Mr. Cicilline. Thank you, Mr. Chairman.
    And thank you for your leadership. When you say the 
prospect of energy in Africa is brighter, it is in large part 
because of your relentless leadership on this issue. So I want 
to thank you and Ranking Member Bass for your work and for 
convening this hearing and thank our witnesses for being here 
today.
    It is very obvious that the lack of power available 
throughout the continent has many negative consequences. It 
constrains economic growth. It undermines human resource 
development. It hinders quality of life, progress, and 
particularly limits the quality of social services and public 
safety.
    So the impact, both on the economic prosperity of the 
continent as well as on its ability to meet many of the urgent 
challenges, is severely compromised by the lack of energy. And 
this hearing will give us an opportunity to really assess the 
both prospective and current impacts of Power Africa and 
Electrify Africa. And I am looking forward to the testimony of 
our witnesses and thank you for being here.
    And, with that, I thank you and now defer to the ranking 
member.
    Mr. Smith. To Mr. Stockman for any opening comments he 
might have.
    Mr. Stockman. Mr. Chairman, I have to tell you, I--on 
several accounts--or occasions, I was in the Republic of Congo, 
and unfortunately, there I contracted an unwanted visitor in my 
body and had to go to the hospital. And that is when I found 
out the need for refrigeration and the need for antibiotics. 
And it actually started my journey into trying to ship 
antibiotics and other medicines to Africa, was my own personal 
experience of having none and the importance of energy and the 
importance of having--and, ironically, here is a country, the 
Republic of Congo, who is, you know, producing quite a bit of 
oil, yet they didn't have enough oil at that time--I think 
someone donated lights to them now. When I went back, they 
actually had streetlights. But they didn't have enough energy 
to generate electricity.
    And the thing that really astounded me, as we were driving 
down the streets, they filled little Coke bottles full of 
gasoline and kerosene. You have been over there. You have seen 
it. And you just marvel at, here is a country that is of great 
wealth, natural wealth, and yet its own people are very poor 
and restrictive in terms of what they can get. And it is mind-
boggling.
    I know, being from Texas, I have 87 refineries in my 
district. We produce half of all the gasoline in the United 
States. And I was marveling at the lack of infrastructure for 
the ability to harvest their own oil for their own needs.
    And so, to me, I have always been interested in what a 
country in Africa has versus what it needs and the confusing 
outcomes of when you don't have that infrastructure and you 
don't have that ability to refine and it is unfortunate. I know 
there is a great deal of what people would call corruption but, 
on the other hand, the lack of knowledge and how to take their 
natural resources and make sure it benefits their own people. 
And it is kind of sad to see that difference. You have great 
wealth and great poverty, and yet little electricity.
    I remember the year I went back there again, and they had, 
I think the French donated these lights or solar-power lights, 
so that when you drive down the road now, at least, you have 
streetlights, and they are individually, ironically, powered by 
the sun. But the time before they had that, I was driving down 
there, and the only lights that were in existence in the 
capital were the lights from the car. And you could see all 
these people walking in the streets, and the only lights that 
they had really were from our car lights, which was a little 
bit alarming.
    And I think this is why this hearing is very important. And 
I think this is why we need to, in the United States, 
facilitate helping them take their energy, instead of exporting 
it, but to use it in their own countries.
    And with that, Mr. Chairman, I will yield back the balance 
of my time.
    Mr. Smith. Thank you, to my friend from Texas.
    I would like to yield to the distinguished ranking member 
of our committee, Ms. Bass.
    Ms. Bass. Thank you very much, Mr. Chairman, as always, 
especially for your leadership in calling this particular 
hearing.
    You and I have worked for a long time on this issue and are 
clear in understanding that one of the most important needs on 
the continent is building the infrastructure so that the type 
of trade that you and I would love to see happen can take 
place.
    So I want to thank our distinguished witnesses, including 
the senior U.S. Government officials from the State Department, 
USAID, and DOE, as well as energy experts and advocates from 
civil society. I look forward to hearing your perspectives on 
the opportunities and challenges of energy resource development 
in Africa, including an assessment of the economic national 
security and human development aspects related to the energy 
sector.
    To help address the challenge, we all know that President 
Obama launched Power Africa last year, which is aimed at 
doubling access to electricity on the continent. The first 
iteration of Power Africa sought to provide more than 10,000 
megawatts of new, cleaner electricity and increase access to at 
least 20 million more households and businesses.
    Additionally, during the historic U.S.-Africa leaders' 
summit in August of this year, electrification in Africa was a 
central point of discussion with African heads of state. In the 
midst of these talks, President Obama announced a further 
commitment of $300 million to the Power Africa initiative. And 
this new commitment would increase the initial pledge of 10,000 
megawatts to 30,000 megawatts. And the hope is, is that this 
creates an opportunity to reach up to 60 million households and 
businesses.
    So, based on these early successes, it is critical that we 
continue to invest in initiatives that bring increased 
electricity to the African continent. That is why I was proud 
to join both chairmen, Royce and Smith, as well as Ranking 
Member Engel to introduce the Electrify Africa Act. And we are 
hopeful that that will move forward in the Senate. And so I 
look forward to today's testimonies and I am interested in what 
more Congress can do to be of help.
    Mr. Smith. Thank you, Ms. Bass.
    I would like to now introduce our three distinguished 
experts, all of whom have made major contributions in the past 
and present, who can authoritatively speak to this subject. So 
we thank you on behalf of the subcommittee for being here.
    Beginning first with Mr. Jonathan Elkind, who currently 
serves as Acting Assistant Secretary for the Office of 
International Affairs, having previously served as Principal 
Deputy Assistant Secretary for the Office of Policy and 
International Affairs from 2009 to 2013. Prior to joining the 
Energy Department, he worked as a senior fellow at the 
Brookings Institution, focusing on energy security and other 
foreign policy issues. He also founded and headed a consulting 
company, served on the staff of the U.S. National Security 
Council, and in a variety of other government positions working 
for the Vice President of the United States, at the U.S. 
Department of Energy, and at the Council on Environmental 
Quality.
    We will then hear from Mr. Eric Postel who began as USAID's 
Assistant Administrator for the Bureau of Economic Growth, 
Education and Environment in March 2011. In October 2014, he 
was asked by Dr. Shah, the USAID Administrator, to serve as the 
Assistant to the Administrator for Africa. Mr. Postel brings to 
the position more than 25 years of private sector experience, 
working in emerging markets, especially those in Africa. He has 
also founded an investment banking and consulting firm focused 
on emerging markets, served as a commissioner of the U.S. 
Helping to Enhance the Livelihood of People Around the Globe 
Commission and worked for Citibank Tokyo.
    And then we will hear from Dr. Robert Ichord, who serves as 
Deputy Assistant Secretary in the Bureau of Energy Resources. 
He is responsible for promoting the transformation of energy 
systems to achieve greater efficiency and cleaner performance 
through the use of market forces and innovative financing 
approaches and leads the Bureau's efforts to reform electricity 
and power systems and develop more efficient and reliable 
national and regional electricity markets. Dr. Ichord has a 
long history of U.S. Government service in the energy field, 
having worked for the Energy Research and Development Agency, 
the U.S. Department of Energy, and USAID.
    So thank you for being here today, and I would like to 
begin with Mr. Elkind.

 STATEMENT OF MR. JONATHAN ELKIND, ACTING ASSISTANT SECRETARY, 
   OFFICE OF INTERNATIONAL AFFAIRS, U.S. DEPARTMENT OF ENERGY

    Mr. Elkind. Good afternoon Chairman Smith, Ranking Member 
Bass, and members of the subcommittee.
    I am very pleased to be here to testify on behalf of the 
U.S. Department of Energy on the future of energy in Africa. 
The Department of Energy's Office of International Affairs 
focuses on some of our world's most pressing global energy 
challenges, from promoting energy security to fostering 
international collaborations in science and technology, from 
addressing market volatility to facilitating long-term efforts 
to mitigate climate change.
    We work to leverage the technical expertise of the 
Department of Energy headquarters and our national laboratories 
in energy technologies, markets, and policies. So, in that 
context, I am very pleased, at the interest of the subcommittee 
in energy development in Africa and propose to sketch some of 
the major contours in those markets and some of the Department 
of Energy's activities.
    Africa, particularly sub-Saharan Africa, as the chairman 
noted, is experiencing rapid economic development. Sub-Saharan 
Africa is the world's second fastest growing region, in fact. 
The World Bank reports that economic growth rates in sub-
Saharan Africa continue to rise, having been 4.7 percent growth 
in 2013 and forecasted at 5.2 percent for the current year. 
Thus, many African nations are positioned to become 
increasingly important, both as energy consumers and as energy 
producers.
    The International Energy Agency, in the report that the 
chairman referred to, estimates that the sub-Saharan African 
economy will quadruple in size, growing by 80 percent between 
now and 2040. Even with robust economic and energy development 
in coming years, unfortunately, sub-Saharan African countries 
will struggle to meet the energy needs of their people, unless 
they can find effective new policies, technologies, and 
investment, most importantly, to spur sustained energy 
development. While 950 million people in Africa, according to 
IEA, will gain access to electricity between now and 2040, over 
\1/2\ billion will still lack it.
    If I turn to oil development in Africa, sub-Saharan Africa 
has long been an important player in the global oil market, and 
its role will only grow in coming years. Oil production in the 
region has doubled since 1990 and now accounts for 6 percent of 
global production. And, in addition, sub-Saharan Africa 
accounted for almost 30 percent of oil and gas discoveries over 
the last 5 years. Sub-Saharan African oil production is 
projected to grow from 5.3 million barrels a day in 2013 to 
approximately 6.2 million barrels per day by 2020. At present, 
more than 80 percent of current production is exported. So with 
economic growth driving demand for oil and oil products in sub-
Saharan Africa, we expect that the region's oil production will 
shift to much greater domestic use.
    On the natural gas front, major new discoveries are 
generating excitement in global markets and will provide fuel 
for Africa's growing economies. Among the countries with the 
most important emerging gas developments are Mozambique, 
Tanzania, Uganda, and Madagascar, where there have been major 
progress steps made toward commercial development of newly 
discovered resources in recent years.
    In the power sector, electrification rates in sub-Saharan 
Africa are unfortunately among the lowest in the world, as has 
been noted. North Africa, by contrast, has electrification 
rates of over 99 percent, but in sub-Saharan Africa, the rates 
average only 32 percent, meaning that more than 620 million 
people lack access to modern energy services. And, as the 
chairman so rightly and appropriately noted, this translates 
into very concrete impacts on people's livelihoods and indeed 
their lives.
    So, with this context, in 2013, when President Obama 
underscored the U.S. commitment to Africa's energy development 
by launching the Power Africa initiative, he also asked for the 
engagement by the Department of Energy. In June of this year, 
Secretary Moniz, together with his Ethiopian counterpart, the 
Minister of Energy and Water, convened a U.S.-Africa Energy 
Ministerial. It drew together 500 participants, 42 African 
countries, all the relevant pieces of the U.S. Government, 20 
ministers from across northern and sub-Saharan Africa and, 
importantly, both African and U.S. companies, along with civil 
society, academia, and other organizations. We focused on clean 
energy technologies, increased power generation, rural 
electrification, regional power pools, oil and gas development, 
policy and regulatory issues, investment opportunities, and the 
requirements for finance.
    In the wake of the African ministerial, the Department of 
Energy is working with Africa's leading economies to help them 
meet their energy development goals. I would like to give a 
couple of quick examples of work that we are doing. In the 
renewable energy arena, our national renewable energy 
laboratory is working with Angola's Ministry of Energy and 
Water to deliver ``Train the Trainer'' program, which will help 
to make available more instructors and technicians to install 
photovoltaic systems in Angola.
    In the arena of energy efficiency, DOE is working with a 
number of west African countries through the Economic Community 
of West African States to develop an efficient lighting 
policymakers' toolbox. This will bring together information on 
lighting standards and labeling and can help raise energy 
efficiency across that entire region.
    In the natural gas arena, in addition to working with the 
Government of Tanzania to develop natural gas training for 
university students and government officials, my counterpart, 
the Acting Assistant Secretary for Fossil Energy, will travel 
to a series of sub-Saharan African countries in early 2015 in 
order to engage on the policy environments that are taking 
shape in some of these critical frontier countries.
    The Department of Energy has a strong interest to forge 
closer links between and among our counterpart U.S. Government 
agencies and African governments. We also feel it absolutely 
essential, in view of the investment needs, to work very 
closely with U.S. companies. We bring to the table particular 
expertise in regard to energy technologies, markets, and 
policy. And we view this as a strategic opportunity for the 
United States, for our companies and also for our partners in 
Africa.
    So the bottom line is this: Energy is the cornerstone of an 
African strategy for poverty reduction and economic growth, 
where my colleagues on the panel are more expert to be sure.
    DOE, for its part, however, recognizes that economic growth 
is closely linked, intimately linked to the availability of 
energy services to meet the needs of African companies and 
citizens. That is why we are working with private sector and 
public sector partners, both in the United States and across 
Africa, to help Africa unleash its full energy potential for 
the benefit of African citizens and, also, for the benefit of 
the United States.
    Thank you very much for the opportunity to be with you 
today.
    Mr. Smith. Mr. Elkind, thank you so very much.
    [The prepared statement of Mr. Elkind follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
        
                              ----------                              

    Mr. Smith. Mr. Postel.

  STATEMENT OF THE HONORABLE ERIC G. POSTEL, ASSISTANT TO THE 
ADMINISTRATOR, BUREAU FOR AFRICA, U.S. AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Mr. Postel. Thank you, Chairman Smith, Ranking Member Bass, 
members of the subcommittee. Thank you for the opportunity to 
appear before you today.
    President Obama's Power Africa initiative and the 
leadership of Congress, including members of this subcommittee, 
highlight the extent to which we are all united in addressing 
one of the core obstacles to Africa's development, the lack of 
access to electricity. As all of you have noted, without a 
dependable supply of electricity and an enabling policy 
environment, the private sector will not invest significantly 
in African economies. And without private sector investment, 
local economies, entrepreneurs, and citizens cannot thrive.
    Power Africa, a whole-of-government effort by a dozen U.S. 
Government agencies, is working to address this obstacle. To 
date, more than 80 private sector partners have committed to 
invest over $20 billion in power sector development. Power 
Africa has already helped close deals that will generate more 
than 3,000 megawatts of energy, providing power for more than 5 
million African homes and businesses. For example, with our 
support, the Nigerian Government privatized 5 generation and 10 
distribution companies. These companies, in addition to other 
planned investments and privatizations, are expected to produce 
8,000 additional megawatts of power in the coming years.
    At the same time, another member of the Power Africa team, 
the Overseas Private Investment Corporation, OPIC, has already 
committed $410 million in financing and insurance to private 
sector partners' projects. For example, its $250 million 
financing for the Lake Turkana wind farm in northern Kenya will 
become the continent's largest wind project when it is 
complete.
    Power Africa focus countries have committed to undertake 
tough policy reforms in their energy sectors. In August, The 
Millennium Challenge Corporation, MCC, signed a compact to 
invest up to $498 million in Ghana's electricity sector. This 
compact includes tough policy reforms needed to create a 
viability, sustainable energy sector in order to stimulate 
private investment. Power Africa has so far been able to 
catalyze commitments in excess of $4 billion for the 
development of Ghana's energy sector.
    Power Africa's successes extend to U.S. companies as well. 
For example, General Electric is one of the companies making 
commitments in that Ghana situation that I just described. As 
another example, during meetings in a Nigerian trade mission to 
the United States that was hosted by the U.S. Trade and 
Development Agency, discussions enabled a company called Itron, 
a company based in Liberty Lake, Washington, to sell nearly 
$400,000 worth of electricity meters to Nigerian distribution 
utilities. And they are discussing right now another order 
worth upwards of $2.6 million. There is a USTDA sponsored 
follow-on activities planned that are expected to lead to even 
more sales by U.S. firms.
    Power Africa is also facilitating investment in the small-
scale energy solutions that are so crucial to reaching rural 
communities with no access to the national grids. In September, 
the African Development Foundation and its partners chose 22 
winners of Power Africa's off-grid challenge, a competition 
that promotes innovative solutions for off-grid energy.
    In another small-scale project with an outside impact and 
an example of something that one of you mentioned, Power Africa 
is funding the procurement of generators for an Ebola treatment 
unit and other facilities in Liberia that will power water 
pumps, lights, and even the washing machines used to clean 
health workers' hospital scrubs, some of these basic building 
blocks that we need to help defeat this epidemic at its source.
    At this year's African leaders' summit, as mentioned, 
President Obama renewed our commitment to the initiative and 
pledged to seek a new funding level of up to $300 million in 
annual assistance to expand the reach of Power Africa across 
the continent in pursuit of a new aggregate goal of 30,000 
megawatts of additional capacity, thereby, increasing access, 
if we hit that goal, by up to 60 million households and 
businesses. Other donor partners also seized the opportunity at 
the summit to announce major new commitments to Power Africa. 
Today, as noted before, 600 million Africans don't have access 
to electricity. Together with our partners in Congress, such as 
you, our partners in Africa, other donor nations and private 
businesses, Power Africa is working to greatly increase access 
to reliable cleaner energy.
    Thank you, Mr. Chairman, Ranking Member Bass, and members 
of the subcommittee for your support and your leadership of 
this very important initiative. I look forward to your 
questions today.
    Mr. Smith. Thank you. It is we who thank you for that 
leadership.
    [The prepared statement of Mr. Postel follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        
                              ----------                              

    Mr. Smith. I would like to now yield such time as may 
consume to Dr. Ichord.

  STATEMENT OF ROBERT F. ICHORD, JR., PH.D., DEPUTY ASSISTANT 
SECRETARY, BUREAU OF ENERGY RESOURCES, U.S. DEPARTMENT OF STATE

    Mr. Ichord. Thank you, Chairman Smith, Ranking Member Bass, 
and subcommittee members. I appreciate this opportunity to 
discuss Africa's energy future and how we are using our foreign 
policy tools to support stability and economic development in 
Africa, to increasing access to electricity, and laying the 
groundwork for a stable and prosperous energy sector.
    I am here representing the Bureau for Energy Resources at 
the State Department, which focuses on our energy equities 
around the world and seeks to elevate and integrate them into 
our broader foreign policy. First, I would like to acknowledge 
and thank the House for its keen attention to the issue of 
electricity poverty in Africa, as demonstrated through the 
passage of the Electrify Africa Act. Clearly, Africa is going 
through a historic transformation, and the State Department's 
Bureau for Energy Resources is working hard to help African 
governments responsibly develop their conventional and 
renewable energy resources and to accelerate the reform of 
their electricity systems, which will then encourage private 
investment, support economic growth, and increase electricity 
access.
    Within our interagency team--and I should say, we have a 
very, very strong interagency team, one of the strongest in my 
almost 40 years in government in terms of working on these 
issues. Within that framework, the Energy bureau is focused on 
three main areas: One, promoting good governance as it relates 
to managing oil and gas resources, but this is also very 
important for the electricity sector as well; second, 
increasing access to electricity; and, third, increasing the 
use of renewable energy technologies.
    Let me turn to governance. Governance and transparency are 
key security as well economic concerns. Poorly managed 
resources can stifle development and feed corruption. With the 
goal of helping countries avoid these issues, our Energy 
Governance Capacity Initiative offers governments on-the-ground 
technical assistance and training, both in the region and in 
the United States, on some of the most difficult issues facing 
this sector, for instance, management of revenues, 
incorporation of best practices into laws and regulations, 
protecting people and environment from sector impacts.
    Under the program we are currently engaged with Liberia, 
Sierra Leone, Somalia, Tanzania, and the Seychelles. The large 
offshore gas discoveries in Mozambique and Tanzania, which you 
are all aware of, have global, regional, and national 
significance. And we will be working on ways in which we can 
ensure their sound development as these resources are 
developed.
    Transparency is a key component of good governance, and we 
are actively involved in the Extractive Industries Transparency 
Initiative, EITI, to support transparency and accountable 
management of natural resources. Through EITI, representatives 
of governments, civil society, and industry work together to 
produce reports that disclose information about a country's 
natural resource revenues, allowing the citizens to see how 
much their natural resources are worth and how they are used. 
Currently, there are 18 countries in Africa that are EITI 
compliant and four are EITI candidate countries.
    Clearly, we have heard about the statistics on the extent 
of energy poverty in Africa. And we are not only working 
through Power Africa, but we are also involved in multilateral 
efforts, such as the Sustainable Energy for All initiative of 
the United Nations and World Bank. And we are helping to track 
investment needed to expand electricity generation, 
transmission, and distribution, all key sectors.
    As an active participant in the Power Africa team, State is 
focused especially on the policy framework for investment and 
the reforms necessary to improve the enabling environment and 
reduce the risk for investors. Through our consistent 
diplomatic engagement through our Embassies and with African 
embassies in Washington, the State Department is working to 
ensure that the transactions, that have been the emphasis of 
Power Africa, lead to structural policy and governance changes 
that will encourage even more investment. We have positioned a 
senior career Foreign Service Officer in the region who is 
working with our Embassies to enhance and focus our diplomatic 
efforts while minimizing costs. We are also planning regional 
training sessions that will upgrade the energy knowledge and 
skills of our economic officers in the Embassies and in the 
region.
    We are very excited about the Beyond the Grid initiative--
the sub-initiative that is part of Power Africa. And we are 
working globally, as well as in Africa, and looking at 
promising business and technology models that will help provide 
energy access to rural populations. And we have helped forge a 
link recently between Power Africa and the Sustainable Energy 
for All initiative, with its goal of universal electricity 
access for the 1.2 billion people around the world, half in 
sub-Saharan Africa, that don't have access to electricity by 
2030. A very ambitious goal, but one that is very consistent 
with the Electrify Africa and our Power Africa objectives and 
where the European Union and others are also making large 
commitments to increase electricity in Africa.
    Our power sector program provides expert advice to help 
strengthen the southern African power pool and the association 
of energy regulators that oversee this developing market. We 
see regional power pools as critical to creating the larger 
markets that can attract investment and tap the diverse 
resources in Africa. We have our unconventional gas technical 
engagement program that is working with countries to help them 
to develop and look at the potentials for their unconventional 
natural gas resources and do so in a sustainable and safe 
manner. We are working with many partners around the world, for 
instance, the International Renewable Energy Agency that has a 
strong emphasis in Africa, and our initiatives will link with 
many of theirs and improve the synergy with Power Africa.
    In conclusion, Mr. Chairman, sub-Saharan Africa stands at a 
crossroad. Expansive renewable resources and an emerging oil 
and gas sector will either be an integral part of bringing 
light to the continent and lifting it out of poverty or be a 
catalyst for instability and corruption. We feel the 
administration and Congress have a historic opportunity to 
engage across the energy spectrum to address these challenges. 
I look forward to your questions. Thank you very much.
    Mr. Smith. I thank you very much for your testimony.
    [The prepared statement of Mr. Ichord follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
                              ----------                              

    Mr. Smith. I would like to begin with just a few questions 
and then yield to my distinguished colleagues.
    So let me ask you, first of all, what African countries 
have prioritized electrification? If you could just go through 
some of those countries. And what are some of the obstacles and 
challenges that we and others are facing in trying to assist? 
Are the U.S. and other investments meeting the challenge, or 
are there gaps? Has enough been allocated to this endeavor to 
make it happen sooner rather than later?
    Operationally, is the emphasis on national governments or 
state governments or both or local? If you find a national 
government that is unwilling to be as transparent as we would 
want them to be, do we look to bypass and go to a state? 
Because, obviously, in the U.S., it is the States and local 
governments that carry the heavy burden of providing 
electricity. Is that model being replicated in Africa?
    In terms of the electrification, obviously, we have state-
of-the-art electrification here. And I have visited virtually 
every electricity plant in my State, most of them, not all of 
them, over the years. They obviously have many environmental 
safeguards, scrubbers when it is coal, to ensure that what 
comes out the chimney does not lead to disasters, health-wise, 
because of pollution. Are those kinds of environmental, 
sustainable, best practices being incorporated in what we do? 
It seems to me there is so much on-the-shelf capability and 
knowledge that it would be a shame if that was lost. If you 
could just spend a moment on that as well.
    Where are the African power leaders, especially the 
equivalent to the NCO corps, the people who actually run the 
generators? Where do they get their education? Are they 
partnering with electricity companies here? Is it something 
that they are picking up in college? Junior college? Who is 
training those who will run the plants so that they will be run 
safely and effectively?
    And, finally, the Beyond the Grid initiative under Power 
Africa is intended to facilitate investment in small-scale 
energy solutions. Do you think such projects could interest 
more African entrepreneurs to take a greater interest in 
creating means to supply energy to underserved communities in 
Africa? If you could speak to those questions, I would 
appreciate it.
    Mr. Postel. Thank you for your questions, Mr. Chairman, and 
thank you for your leadership on this entire topic and 
introducing the legislation.
    So each country is in a different place, but we have seen a 
number of countries really focus on increasing electrification. 
And you see this, for example, as witnessed in the MCC compacts 
in Tanzania and Ghana. Both governments have realized that the 
lack of electricity is holding back their growth. I won't go 
through the whole list, but there are a lot of countries 
realizing how important this is to their growth, to their 
healthcare system, to their education system, and are looking 
to really do a lot more in this area.
    There are gaps. Part of the concept behind Power Africa, is 
to identify what the gaps are and work with the governments and 
the private sector investors to try to solve them. We have seen 
cases where private-sector investors from the United States and 
elsewhere have tried to do deals, and then they run into a 
roadblock. And that is where the transaction advisors step in 
and say, Okay, how do we solve that?
    Mr. Smith. On the gaps issue, is that something you could 
summarize and provide to the subcommittee, so we get a sense of 
what you are truly encountering?
    Mr. Postel. Yes, we can.
    Mr. Smith. And then we could try to be helpful with those 
governments and----
    Mr. Postel. We can do that.
    Mr. Smith. Thank you.
    Mr. Postel. In terms of local and national governance, 
obviously, there are often national policies that set the 
energy policy and the tariffs for an entire country. But there 
are a number of local aspects that also come into play. And we 
work with all of them in this same roadblock approach to figure 
out what the challenges are, and how we deal with them.
    The question of environmental and social safeguards is very 
important. And you are absolutely right; we don't need to 
reinvent the wheel. We need to make sure that, you know, we use 
state-of-the art. And so all--all the projects--for instance, 
if there is a component that involves the development banks, 
each one of those banks has their own policy for checking these 
things and working with the governments and making sure that 
the projects fit those standards and don't introduce some 
really poor practices.
    In terms of the education and training, there are local 
institutions that offer, in some countries, training. In other 
cases, people have education from the United States or Europe. 
But it is an area where there are shortfalls. There is actually 
a longstanding partnership that USAID funds, which involves a 
lot of U.S. utilities and another one involving U.S. 
regulators. And they work in combination with people in the 
individual countries for this very reason so that they could 
have very technical interactions from one utility technical 
person to another and to try to increase that skill level 
because there are definitely gaps, and we need to keep working 
on that. Similarly----
    Mr. Smith. On that point, if I could. Do those technical 
people come here to learn, or do our people get deployed there?
    Mr. Postel. Both.
    Mr. Smith. Oh, both.
    Mr. Postel. Depending on the circumstances.
    Mr. Smith. How large of an operation is that?
    Mr. Postel. It is--it is a modest-sized, very economical 
system where each year we get requests from different 
countries. And it is not restricted to Africa, but Africa has 
been a big participant. And then we look at them, and we match 
them up with different utilities--I don't know off the top of 
my head but there is probably a utility in New Jersey or some 
in California. But they match them up with utilities that have 
the expertise that they need and then they have these exchanges 
and interactions.
    Mr. Smith. Mr. Postel, for the record, could you provide 
the committee a sense of what that is?
    Mr. Postel. Yes, we can.
    Mr. Smith. Maybe a summary. That would be very helpful.
    Mr. Postel. Yes, we can.
    And then, lastly, before I turn to my colleagues, 
absolutely, on beyond the grid, having local organizations and 
entrepreneurs seeing the business opportunities is part of the 
objectives and that is sometimes where some of the credit 
guarantees of OPIC or USAID or others can help them deal with 
the risk and introduce them to interesting business 
opportunities, which they know very well, because some of these 
remote areas they might know much better than a large company. 
But I am sure, on several of these points, my colleagues have 
things to add.
    Mr. Elkind. Thank you.
    Chairman Smith, I would add a couple of points, if I may. 
First of all, we all acknowledge the difficulty of providing 
broad answers because of the very great diversity of the 
different circumstances in different African countries and, 
indeed, rural versus urban settings. But acknowledging that 
danger, I will attempt to respond.
    In regard to the question about cutting-edge development of 
the power systems, the grid centralized systems, one of the 
areas that we felt is very, very important and that a number of 
our agencies have worked on from different vantage points, 
different perspectives of our respective missions, is the 
utilization of associated gas from oil development projects. 
The historical experience of the flaring of natural gas is 
understandable when infrastructure is lacking but when 
infrastructure manages to be lacking then for protracted 
periods of time into decades, then, that is really a critical 
lost opportunity.
    And so one of the things that we have been focusing on in 
our policy dialogues with African countries and, indeed, one of 
the things that we are focusing on at the level of 
identification of mutual interest between U.S. companies and 
opportunities in certain African countries is this area of gas 
capture for power generation. Together with the Trade and 
Development Agency this summer, the Department of Energy 
organized a reverse trade mission that took leaders from a 
couple of different African countries to the Houston, Texas, 
area for a series of meetings with companies involved in gas 
development, gas sector developments. So we think that there is 
an area for potential opportunity there.
    In regard to the Beyond the Grid initiative and some of the 
potential for growth with African entrepreneurs, from the 
Department of Energy perspective, one aspect of this that we 
have been focusing on is the importance of proper performance 
of products in the marketplace. It is, of course, easy to spoil 
the market when you have substandard products, be they for off-
grid or for solar lanterns, another area where the Department 
of Energy has worked. And so we are working with our colleagues 
at USAID, in particular, to look at this question of how to 
make sure that off-grid lighting systems, solar systems, and 
hybrid systems that are a mix of renewables and either diesel 
or natural gas, that these actually perform in the way that is 
advertised so that, then, you see a healthy development of that 
entrepreneurial opportunity going forward.
    Lastly, on the issue of the training, I would say from our 
perspective, this is an area that is a huge interest to U.S. 
companies. But it is also a key gap. I mean, there is lots of, 
shall we say, head room, opportunity for growth.
    I am sure that members of the committee have had the 
experience, as I and my colleagues have, for example, as a 
comparison, of traveling throughout the Gulf region. And when 
one is in the Kingdom of Saudi Arabia or United Arab Emirates, 
or Kuwait, many other countries where there have been 
historical, very long-lasting education and training and 
company relationships, what that translates into is, not only 
high quality energy development, it also translates into huge 
opportunity for U.S. companies because, in many cases, our 
counterparts are familiar with U.S. standards, U.S. approaches, 
U.S. vendors. So there is a huge opportunity for growth there. 
It is an area that DOE is looking to try to develop some ideas 
on.
    Thank you.
    Mr. Ichord. May I make a few points?
    Mr. Smith. Yes. Thank you.
    Mr. Ichord. I have five points that I will chime in here on 
that relate to the gaps and challenges. The first is a common 
problem throughout the continent is related to the financial 
position of the utilities. So one of the challenges is how to 
strengthen the regulatory environment, the pricing environment 
and move toward more commercial utilities because, then, the 
investors will then know that they have a credible off-taker 
for the power that they are generating. Clearly, we have done a 
lot of work through Power Africa on power purchase agreements, 
developing standardized approaches. OPIC has been very active 
in this area, and that is very important. At the same time, 
though, you need to have a solvent, financially viable energy 
system in order to have the long-term investment that is 
necessary to develop the sector.
    Second is, I think, Mr. Elkind's point about the 
integration of the gas and the upstream issues with the power 
sector, as a particularly important challenge. Oftentimes you 
have different ministries, like in Nigeria. And you have got 
to, in a sense, try to work to help them be a catalyst for them 
to, at least, try to do better planning so that you can ensure 
that the oil and gas that is being developed in the country is 
going to be available to meet the needs of the countries. Ghana 
is a very interesting example where they want to develop a lot 
of capacity and yet the oil and gas development has been slow 
in coming.
    The point about urban and subnational, I think, is a very 
important point in Africa, as well as in other regions because 
the urbanization process is creating these centers of buildings 
and industry. And the mayors and the subnational leaders of 
those entities are becoming more and more important as this 
process proved. And, as you know, we haven't talked about 
urbanization, but urbanization is still at really an embryonic 
stage in sub-Saharan Africa, with less than 50 percent. And 
even by 2030, you are only going to have 54 percent urban. So 
there is a lot of--but it is rapidly growing. Working with the 
cities and the urban areas is a very important area, 
particularly in areas like energy efficiency.
    Fourth area is the entrepreneurial development in local 
institutions. Here, I think, in many cases, it is very 
important to work with the local business community, which we 
are, and also to focus on how we can develop more capacity and 
receptivity in the local banking system so that they can lend 
for some of these projects. So it isn't just dependent on 
international capital coming in because you know that much of 
the international capital, particularly the private and venture 
capital, institutional capital, sees huge risks and are very 
risk-averse in terms of coming into a lot of these areas. So 
the local banking sector becomes very important. And we have 
seen in Nigeria and some of the other countries that the local 
banking system can, if developed, play a key role.
    And then, finally, I would say that there are a lot of 
actors that are playing in this field. I think it is very 
important. And we, of course, are working very closely with the 
World Bank and African Development Bank and other donors to try 
to have a coordinated approach that addresses the range of gaps 
institutionally and otherwise and that we are trying to 
leverage our money effectively in that process.
    Mr. Smith. Dr. Ichord, thank you very much.
    Ms. Bass.
    Ms. Bass. Again, thank you all for your testimony.
    As I said in my opening statement, I am a big supporter of 
Power Africa. But I want to raise a few issues that are raised 
by others with concern about Power Africa and the 
implementation.
    So I believe, Mr. Elkind, you were mentioning African 
entrepreneurs. I think you mentioned that. So I wanted to know, 
to the extent, that the African Diaspora here in the United 
States was getting involved or what type of outreach are you 
doing? So a couple of questions, the Africa Diaspora 
specifically but also just small businesses. You know, I 
constantly encounter small business people who want to figure 
out how to be connected and just can't quite make the 
connection.
    You mentioned the reverse trade mission and you mentioned 
it to Houston. I am wondering if there is any others that are 
planned? Of course, I am going to make a pitch for southern 
California, because it seems like reverse trade missions don't 
quite make it to the West or maybe I am just not aware of them. 
So that is another issue. And then I want to ask you about the 
development of the infrastructure on the continent. So why 
don't I start with those couple of questions.
    Mr. Postel. Thank you for your questions. I will start, but 
I am sure my colleagues will add in.
    We agree with you that we need to, not only start, but 
continue with a lot of outreach to reach all different sectors 
of interested people, small U.S. businesses, Diaspora, large 
U.S. businesses, and so forth. So we are making progress, but 
we have more to do.
    There are some cases already where there has been Diaspora 
interest. I understand that there is, for instance, an 
Ethiopian-American business that is going to be manufacturing 
smart meters for Ethiopia's electricity company. And I hope 
that there will be additional successes in the days ahead. And, 
as you allude to, many members of the Diaspora know very well 
the business opportunities, and they have, through their own 
hard work, accumulated capital. And so they are ideally suited 
to participate in different aspects of this.
    And in terms of being connected, we have created a one-stop 
shop. On the USAID Web site, there is a page. But in the worst 
case, somebody can just send an email, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1868776f7d6a797e6a717b79586d6b79717c367f776e">[email&#160;protected]</a> 
and then we go, use that one-stop shop to reach out to all the 
dozen U.S. Government entities involved, depending on what the 
circumstance is, and make the connections. Because we have the 
view that people shouldn't have to hunt all over the U.S. 
Government to figure out who to talk to. So that is why we have 
created this one-stop shop. We will direct them and save them 
that trouble. It shouldn't be that difficult for American 
taxpayers.
    Ms. Bass. Well, you know what, I really would like to help 
you with that as well. So maybe reaching out to Members of 
Congress, others might want to be involved, African Diaspora, 
as well African-American Diaspora, who are very interested in 
participating in Power Africa.
    Mr. Postel. Thank you. We will take you up on that.
    Ms. Bass. Okay. Please do.
    Another issue that has come up--and it came up, actually, 
when the bill was being heard here in committee. And that is, 
to the extent that as we are in Power Africa, developing--
supporting the development of the infrastructure on the 
continent, to what extent is it getting into communities? So 
there is some concern from some people that most of the 
infrastructure is going to be built in cities to help 
businesses, which is wonderful. But considering that people in 
the rural areas or even right in the city, in neighborhoods do 
not have electricity--what always horrified me was the idea of 
women in childbirth using the light on their cell phone to 
deliver a baby. So I am wondering about that.
    Mr. Ichord. Let me start. Clearly, the issues related to 
the models for rural electrification are changing a lot. I 
mean, it is really a revolution that is occurring in which the 
drop in prices for solar systems, the advances in 
telecommunications and cell phones--I just came back from 
Bangladesh--some of the models and commercial approaches that 
are being taken, I think, are going to be extremely important 
for Africa because you have such large rural populations 
without access. You have small--relatively small loads. The 
economics of extending the grid by utilities that don't have 
the money to do it, you know, or don't necessarily have the 
same kind of commitment to extend the systems because they are, 
in many cases, struggling to just meet urban requirements.
    Ms. Bass. And, in urban, I was referring to in 
neighborhoods----
    Mr. Ichord. In neighborhoods. Yeah.
    Ms. Bass [continuing]. In urban communities that----
    Mr. Ichord. So--but I think--I think----
    Ms. Bass [continuing]. Commercial areas.
    Mr. Ichord [continuing]. The issue is related to--you know, 
to decentralized approaches that are relevant to some of the 
urban areas as well as to the rural areas.
    Ms. Bass. Right. So so what----
    Mr. Ichord. And I think there was, also, your question 
about the entrepreneurial opportunities to work with U.S. 
companies----
    Ms. Bass. Right.
    Mr. Ichord [continuing]. Who are at the--at the leading 
edge of these technologies. We are working with a California 
company that has developed a nanogrid approach in Bangladesh 
and that is the kind of innovation that I see going on in the 
U.S.--with the U.S. companies that we can begin to try to focus 
on to take a closer look at Africa and the market opportunities 
there.
    Ms. Bass. So you are telling me that it is a part of the 
initiative?
    Mr. Ichord. Well, I think that is why I said we are excited 
about Beyond the Grid because, in a sense, we are in the early 
stages here. But a lot of companies have come up and expressed 
interest in involvement. And I think that, if we get the right 
strategies, we can indeed help accelerate the commercialization 
of these kinds of options for Africa.
    Ms. Bass. And maybe you can, you know, at another point, 
give me the name of that company in California.
    Mr. Ichord. Sure. Will do.
    Ms. Bass. So a couple of other areas. Another area of 
concern that gets raised a lot is to what extent is Power 
Africa looking at renewables? As you know, that is always a 
controversial issue, whether Power Africa is just going to 
focus on fossil fuels. So to what extent? From anybody. And 
then I have one final question after that.
    Mr. Elkind. Ranking Member Bass, thank you for those 
questions. Just to respond to a couple of the ones that you 
have posed.
    First of all, in relation to the reverse trade missions, we 
would be happy to go back and talk with our colleagues at the 
Trade and Development Agency that lead in the organization of 
them. Our agency and others from across the U.S. Government 
typically provide technical depth and some of the relationships 
with the companies that can help to make them most effective. 
But I will be happy to take away yur interest in knowing what 
more do they have planned over the horizon.
    Ms. Bass. Well, good. You are going to tell them to come to 
Los Angeles, then, huh?
    Mr. Elkind. I beg your pardon?
    Ms. Bass. Are you going to tell them to come to Los 
Angeles?
    Mr. Elkind. Well, I am told that----
    Ms. Bass. I'm just kidding.
    Mr. Elkind [continuing]. In fact, there is a TDA 
representative in Los Angeles that is working on an effort 
called Making Global Local to get reverse trade missions to 
cities across the United States. So some of that may, in fact, 
be happening and we will provide you more----
    Ms. Bass. And I am sorry. Tell me the name of it again. 
What did you say?
    Mr. Elkind. Making Global Local.
    Ms. Bass. Oh, okay.
    Mr. Elkind. So, indeed, some of this may be happening, and 
we will get the details back to you for the record.
    Concerning the role of renewables in Power Africa, I mean, 
the first point--the approach that we, as an administration, 
are taking is very nonspecific as to technologies. There are 
going to be different answers that work in different contexts.
    Ms. Bass. Great.
    Mr. Elkind. Beyond the Grid is all about figuring out where 
there are opportunities, be it for renewable systems with 
storage, hybrid systems that involve a mix of renewables and 
fossil fuel-generating capacity for when there is not wind or 
sunlight.
    This is one of the areas where the Department of Energy is 
able to make a specific contribution to Power Africa's 
capability by providing some of the expertise of our 
laboratories in these arenas.
    I think it is worth calling out that the pledges from 
private-sector partners to the Beyond the Grid initiative are 
pretty considerable. It is more than $1 billion over the coming 
5 years.
    So while we don't have today specific, long lists of things 
that have gotten done, we think that this is a very promising 
area for the growth of Power Africa and in certain settings, 
there will be a lot of relevance.
    Last comment: It is not just the village setting in rural 
Africa where off-grid and micro-grid systems are relevant, and 
that is equally true in remote settings in the United States, 
in Alaska, for example, and even in very nonrural settings, 
such as the micro-grids with separable grid systems, for 
example, that we are looking at in very, very highly urbanized 
parts of our country where, in times of grid instability, 
another commonality with some of the African grid systems, you 
can island off a particular part of the grid in order to 
protect critical load, hospitals, transport systems, et cetera.
    Ms. Bass. Thank you.
    I am sorry. Go ahead.
    Mr. Ichord. If I might, obviously, we know Africais blessed 
with world-class renewable energy resources. The U.S. is a 
member of the International Renewable Energy Agency, and what 
IRENA has been doing is to try to develop more extensive maps 
of the resource--renewable resource potential throughout 
Africa.
    This is clearly showing that, in a sense, there is a range 
of resources, whether it is geothermal in Ethiopia, whether it 
is wind in Kenya, or hydro resources which are still very 
important for the continent and, in some cases, even solar 
power for larger grid-connected applications.
    I was struck at the Africa ministerial in Addis about how 
consistent the ministers were in stressing the important role 
that they saw renewables playing in a diversified energy mix.
    I don't know if you were, John.
    And so I think that many countries have moved--they have 
moved to develop the incentive frameworks for interconnection 
of renewable energy. I think, in some cases, it--clearly they 
are looking at a mix of both renewables and natural gas to have 
cleaner fuel systems, and I think that varies widely, depending 
on whether you are talking about north or south or central.
    Ms. Bass. Thank you.
    Mr. Weber [presiding]. Thank you.
    You said in your opening remarks that you went to a meeting 
where there was about 500 participants, and I was just coming 
in and trying to get situated.
    Where was that?
    Mr. Elkind. Thank you for the question.
    This was the U.S.-Africa Energy Ministerial, which took 
place in early June in Addis Ababa, Ethiopia. It was hosted by 
the Government of Ethiopia, co-chaired by the Secretary of 
Energy, Dr. Moniz, and the Ethiopian Minister of Water, 
Irrigation, and Energy.
    Mr. Weber. Okay. And then Mr. Postel, you said that Nigeria 
recently had privatized five generation companies and ten 
distribution companies. Is that correct?
    Mr. Postel. Correct.
    Mr. Weber. How long ago was that?
    Mr. Postel. Over the course of the last 12 months.
    Mr. Weber. Over the course of the last 12 months.
    So the Government itself had been running on their 
generation and distribution facilities?
    Mr. Postel. Yes, they had.
    Mr. Weber. What percentage does that equate to in Nigeria? 
When you say they privatized five and ten, is that half of the 
facilities? A third?
    Mr. Postel. I can get you the precise answer. Off the top 
of my head, I believe it was at least half, if not a bit more.
    Mr. Weber. Okay. So in 12 months, has that been a viable 
function? Are they functioning properly with a little--I mean, 
I own a business. So it is impossible to do it without any 
problems. So he is grinning like a possum eating yellow 
jackets. So what does that mean? Are they operating without 
problems?
    Mr. Postel. My colleague, Dr. Ichord, has some more recent 
information that he will add.
    But my understanding is that each company is in a different 
situation in the sense that some are operating very well, some 
a few hiccups. But I would characterize them as growing pains. 
But, in general, a lot of the operations went forward, but----
    Mr. Weber. Okay. And, by the way, I do want to add for our 
ranking member that Texas has its own grid. So you come to 
Texas, 85 percent of the State is covered by ERCOT. You are 
probably aware of that. If you want to know how to get that 
grid in Africa, come see us.
    Next question--you are stuck on the possum eating the 
yellow jackets, huh?
    Mr. Postel, from my notebook--notes about you, you said you 
had developed a plan to--first, international securitization of 
future receivables without a corporate guarantee.
    Mr. Postel. Yes, sir.
    Mr. Weber. Explain that.
    Mr. Postel. This was a financing for the Government of 
Jamaica in 1988. It was the first new funding that they had 
obtained from the private sector in something like 13 years 
because there had been re-schedulings.
    And, basically, every year they were receiving payments 
from AT&T for telephone calls that the Diaspora was making to 
Jamaica, and we felt that that was predictable enough to give 
them the money up front, in essence. And so we raised money in 
Japan and we did that financing, and it was all repaid.
    Mr. Weber. And can you do the same thing with 
electrification in Africa?
    Mr. Postel. I will have to think about that. I don't know.
    Mr. Weber. Okay. That is what I thought it was.
    Dr. Ichord, I think you also said in your remarks 
governance and transparency were key security concerns, 
protection of the people and the environment from sector 
impacts. It should be--I think I was writing fast and 
furiously, although that is a bad term now, isn't it? I was 
writing quickly.
    What does that mean, ``sector impacts''?
    Mr. Ichord. Well, I think, obviously, the--as we know from 
our experience here, the environmental impact of offshore and 
upstream oil and gas is a very important area to develop the 
capacity of these countries, and that is really what it was in 
that context.
    Maybe the ``sector impacts'' is a little too vague, but 
that is what we were talking about, increasing the capacities 
in the environmental management area.
    Mr. Weber. That is what I was wondering.
    And then you also said something about EITI, the 
extractive----
    Mr. Ichord. Yeah. It is an international initiative, the 
Extractive Industries Transparency Initiative. Actually, the 
U.S. is participating. We are a candidate now. The Interior 
Department in the U.S. has the lead on it, and it is basically 
to enhance accountability in terms of this important sector and 
the revenues.
    Mr. Weber. Okay. That is going to be important.
    You said, also, that--and I don't remember if you said 
Africa or a particular country was at a crossroads--I think 
Africa--they had expansive renewable resources and emerging oil 
and gas market--or, I guess, resources.
    Mr. Ichord. Right.
    Mr. Weber. Quantify that for us percentage-wise. Fifty-
fifty? Sixty-forty?
    Mr. Ichord. Well, I think that clearly there are a dozen or 
more countries where oil and gas is developing. Some are more 
developed, like Angola and Nigeria. Others, where exploration 
is just beginning and in the early stages. I think it is a 
little bit too early to say exactly what that mix will be.
    You have--certainly have countries like Tanzania and 
Mozambique where you have world-scale gas resources that are 
being developed, and that will then open up lots of 
opportunities for them to have a significant gas role in their 
economics.
    At the same time, for the electric power sector, the 
economics of many of these renewable energy resources look very 
attractive, especially compared to oil, which many of the 
countries are still--you know, are having to use oil to 
generate and have a cost of, you know, 30 cents a kilowatt hour 
for power, like in Ghana, which has to use oil because they are 
not able to get gas from Nigeria in the pipeline.
    Mr. Weber. So I looked at a map of Africa, doing a search 
for pipeline infrastructure, and it looks like what limited 
pipeline infrastructure they have is primarily in the north. I 
don't know if you are familiar with that map or not.
    Mr. Ichord. Well, you have the west Africa pipeline, and 
that is----
    Mr. Weber. Runs from Algeria to Nigeria?
    Mr. Ichord. The pipeline is only in west Africa and does 
not reach Algeria.
    Mr. Weber. Okay.
    Mr. Ichord. So the problem has been that Nigeria has a 
severe gas shortage because the internal policies haven't given 
the incentives for the development of their gas resources. And, 
therefore, countries like Ghana and others on the pipeline 
route have not been able to get the gas supplies through that 
pipeline.
    Mr. Weber. Is there a robust pipeline industry and/or 
association in Africa that is pushing for the installation of 
pipelines? And do we have property rights? And how does that 
play if there is?
    Mr. Elkind. Thank you, Congressman Weber.
    There is, I think, a natural unavoidable tension that will 
have to play out here and that, frankly, was one of the really 
core elements of our discussion in June at the ministerial 
meeting that I just referred to in response to your question.
    And that is, as one sees development of the oil and gas 
resources, particularly in some of the frontier provinces, east 
Africa in particular, how much of that is for domestic 
consumption versus export?
    And, I mean, the international oil companies want to meet 
demand in the countries where they operate because that has a 
multiplier effect that is very, very beneficial for many of 
those companies, but they also need predictability in terms of 
off-take arrangements.
    So, to your question of if there is a robust existing 
vision, I would say no. There is a great deal of interest and 
some fairly elaborated, some fairly ambitious ideas, goals, in 
terms of development of east African gas pipelines, for 
example, to take gas to power generation in South Africa from 
Mozambique, as one--and Tanzania--one big example.
    But the open issue, which still has not yet played out, is 
whether the steps can be put in place, the right policies, the 
right laws, that give the investors enough predictability so 
that they will put down, tens and tens of billions of dollars 
for really multi-decade investment----
    Mr. Weber. Well, and that brings me to--well, I have got a 
question about ranking of the most favorable countries, because 
clearly some countries are going to be better candidates than 
others on investing into infrastructure.
    But before I go there, Mr. Elkind, you also said that you 
all had a focus on performance of products in the marketplace, 
making sure off-grid systems actually perform.
    Now, when you say an ``off-grid system,'' describe one of 
those to us.
    Mr. Elkind. Yes, sir.
    So a small household or village-level system that might 
include one or more solar panels, perhaps paired with either 
storage capacity, battery systems or a fossil fuel--a diesel or 
other fossil fuel-generating system to use when the sun is not 
up, the wind is not blowing. That through to highly efficient 
lamps, refrigeration for food and medicine. Those kind of 
applications.
    Mr. Weber. So is that to say that, if someone has a house 
out there with solar panels, there is going to be an effort to 
have regulatory rules in place that they have to meet certain 
efficiency requirements?
    Mr. Elkind. No, sir. The point here is that there are lots 
of examples that one can see, for example, in solar lanterns 
where are products that are being sold into a number of 
marketplaces, including a number of the African countries, 
where the claims for the performance of the product simply 
don't match what the product actually does. You know, in our 
context, we call that false advertising.
    And so, when the countries are saying, ``How do we think 
about the technical challenge of knowing what product actually 
does what it says?,'' that is an area where we have experience 
in the United States and can help to make that experience 
available. Again, it is at their request and the point is not 
to allow fraudulent claims in the marketplace.
    Mr. Weber. Well, the last thing--and I don't mean to speak 
for you. But, apparently, one of the things you could say is 
the last thing you want to happen is, as they are developing 
these markets, they get burned with bad products and they just 
say, ``They don't work. Forget it. Never mind.''
    All right. Now, is there any--and I don't know--I guess all 
three of you all. This is my last question that I alluded to 
earlier.
    A ranking of the most favorable countries. I mean, I am 
going to have to believe--and you all have done a lot of 
thought on this. I haven't. But just at a glance, there is 
going to be a lot of factors that are going to influence 
whether they are a good candidate: Population, topography, gas/
oil pipeline availability, educational resources. Do you have 
that work for us that you can come in there and you can train 
how to do this?
    And then, of course, I mentioned earlier property 
ownership. Can you own property? Is there a system in place to 
take over, to condemn property, if you will, for pipeline, a 
right-of-way? The timing. Is it right for the country? 
Stability. Is it a stable system of government?
    So those are just seven things I came up with. Do you rank 
countries, which would be the best candidates for investment in 
their infrastructure?
    Mr. Postel. Congressman, thank you for your question. And 
it sounds like you were at some of these meetings where these 
kinds of things were discussed by listing all of those 
criteria----
    Mr. Weber. No. The NSA was there. I just got the tapes. I 
am sorry.
    Mr. Postel. So we don't have a public listing, per se. But 
in the first phase of Power Africa, we did very carefully, 
through a rigorous interagency process, discuss which would be 
the six focus countries. And the factors that you describe are 
indeed many of the things that we looked at to try to assess 
who would be the good partners, and we will go through a 
similar process as we think about the expansion.
    There is plenty to say on all of them. But one of the ones 
that I will just spend a moment on is the host country's 
commitment. Because as some of the other testimony alluded to, 
if you are trying to have viable electric utilities, if you are 
trying to solve some of problems that our private-sector 
investors have encountered in trying to do viable deals, you 
have got to have a commitment to do things differently.
    And so that was one of the many components, but that was 
one of the most important components, to make sure that we 
really had committed partners who would do this in partnership 
with us and the private sector.
    Mr. Ichord. Well, Congressman, I can't give you a ranking. 
But, obviously, I mentioned a number of the countries that we 
are working with on the oil and gas side that at different 
stages in their development. Some are more gas-prone. Others 
look like they, you know, have good oil potential, like Angola, 
et cetera.
    I think the companies are--you know, we have a range of 
companies, and U.S. included, that are working in these areas 
and that they are assessing the risk and they are assessing the 
commercial viability of these resources. There is a lot of 
exploratory drilling that is planned in some of these 
countries.
    So we will have--I think--a lot of activity in this area. 
So I think it is going to be a couple years before this sort of 
shakes out in terms of where are the biggest opportunities.
    But clearly Mozambique and Tanzania, in terms of the world-
scale gas resources, are ones that everyone is looking at, both 
for export as well as for looking at the potential for east 
Africa and the whole--and including, in South Africa, the 
potential for that gas to have and develop the infrastructure.
    There was recently a seminar that we had as part of the 
ministerial that looked at the east Africa gas infrastructure 
opportunities. That was done by the Columbia Energy Center that 
there is a report on that I would be happy to send you on that 
issue.
    I think, on terms of the issue of the investment climate, 
the question of whether countries are, whether investors are 
willing to come in without sovereign guarantees is a key 
factor.
    And in some countries, I think, you know, investors are 
saying, ``Well, in Kenya, we can do that. We are willing to 
come in without a sovereign guarantee.'' In other countries, 
you won't.
    So you then have to look to: Are there partial risk 
guarantees and other mechanisms that the World Bank or others 
can put in place that will mitigate some of the risk of the 
investment?
    Mr. Weber. Okay. Thank you. That answers my questions.
    I recognize Mr. Stockman.
    Mr. Stockman. I thank you for the panel to come out today, 
on a Friday.
    And, Dr. Ichord, according to your testimony, you have been 
in government for 40 years and you mentioned you were in 
Bangladesh. So was that a good 40 years or so ago.
    My question is: When I was over there in Nigeria, they were 
mentioning some policies. And I am wondering--you had 
standards--are there any standards which prevent interaction by 
the State Department which is predicated on the Government's 
social policies or is it a strictly benign interpretation of 
their capabilities?
    In other words, when I was in Nigeria, they were trying to 
free the girls that were kidnapped, and the U.S. military said, 
``We need to get permission from our Government to give them 
and facilitate information,'' and it was denied because of the 
interpretation of the present leadership in Nigeria.
    I am wondering: Do you have similar restrictions on 
governments such as Uganda and Nigeria and saying, ``We don't 
get involved because of their social policies'' or is that a 
separate issue?
    Mr. Ichord. Well, I think, as we look at our overall 
engagement in the countries, we will work very closely with the 
Ambassador and the Embassy in assessing the political 
situation, the severity of the issues, if there are social or 
human rights issues, and make a decision on a case-by-case 
basis.
    I think it is hard to generalize other than to say that, in 
a sense, we are not just sort of pursuing energy for energy's 
sake. I mean, it is part of our broader foreign policy interest 
in that it takes into account a lot of these questions.
    Mr. Stockman. Could you get me--or maybe you know off the 
top of your head, is Nigeria or Uganda--are there restrictions 
that you have in terms of working with them on energy?
    Mr. Ichord. I think right now--we started in Uganda early 
on in terms of the Energy Governance and Capacity Initiative, 
and we have done a lot of work on the geophysical side, 
environmental, land use planning, et cetera. I think the 
situation now, to the best of my understanding, is that we have 
put on hold any further work in Uganda.
    Mr. Stockman. And that is because of the social policies?
    Mr. Ichord. So I was informed that we have scaled back our 
activities. We are looking at whether we can proceed now. So it 
is----
    Mr. Stockman. But I was asking: Is that because of social 
policies that you scaled back?
    Mr. Ichord. I think it was a combination of things, but I 
would have to get back to you on the specifics.
    Mr. Stockman. I was going to say I would appreciate that. I 
think that would be very helpful. I think, actually, 
Congressman Smith would be interested in that and so I think 
would Congressman Weber. I think we would all be interested in 
that.
    I have to tell you, on a personal level, when I was in 
Nigeria--and I think it actually was from--I think Mr. Postel's 
department who advocated that we not involve our military 
intelligence in helping Nigeria because of some of the 
interpretations of the current Government's positions.
    To me, that was a little bit alarming because I now found 
out today that the Chinese have given Nigeria some of the 
equipment that they have been requesting from the United 
States, and my fear is, because of our policies, that we may be 
driving--as you know, the continent is really being recolonized 
not by the British, not by the Americans, but by the Chinese.
    I mean, in the Republic of Congo and the DRC, there is a 
whole mountain of copper, as you know, that was sold for 
pennies on the dollar and the Chinese have their workers there 
and there is no kind of interplay or development with the host 
country.
    It is very much--in fact, I would argue worse than what the 
colonial governments ever did and, yet, the Chinese are 
continually expanding their breadth of involvement. And my 
concern is that we are putting restrictions on ourselves to the 
degree that now we have become less important to those host 
countries.
    So as you go forward, I would hope that you would see that 
the Chinese are a serious player and that in terms of competing 
with the United States, could be very problematic down the 
line.
    Mr. Postel, you are shaking your head yes. So I hope you 
can tell me.
    Mr. Postel. Thank you, Congressman.
    I will definitely take note of your comments, and I will 
investigate further in discussion with the head of our office 
there. I am not familiar with all the circumstances of this, 
but certainly fully recognize the point you are making about 
the very active presence of China in Africa.
    Mr. Stockman. Yes. And I just say I think sometimes we 
should do more pragmatic analysis and not involve so much the--
I mean, we need to balance it, I guess, in order to compete 
with our Chinese competitors. And it is--almost every country, 
whether it is Chad or Egypt or sub-Saharan Africa, I keep 
seeing the Chinese in a heavy, heavy way.
    And, privately, I think it was the Republic of Congo. Some 
of the administrators said they prefer Americans, but the 
hurdles--well, and for reasons in past history, they have--some 
of those countries have embezzled and taken a lot of money from 
their own people.
    So, in some way, it is justified. But my more concern is 
the interpreting of internal social policies, I think, are 
beyond the scope of what I think the United States should be 
doing. And I just want to express that.
    And, also, I think, in terms of the oil development, and 
particularly in sub-Saharan Africa, there are companies in my 
district, Baker Hughes and Halliburton. So I guess Halliburton 
now technically is in Abu Dhabi, but--or Dubai. It kind of 
moved.
    They would like to be in there, but there is, as you know, 
the Foreign Corrupt Practices Act, and there can be some 
misinterpretation of that law being applied to our own 
companies. And to that extent, I think there is a great deal of 
frustration on our side in Houston where we would like to see 
more cooperation.
    And I think, in deference to our own corporations, if you 
could give them guidance and what they can do to facilitate 
more of involvement in those countries would be a great boon--
well, Texas is already booming. We have no problem with 
fracking in our state. But I am still saying I think it would 
be beneficial to the United States, and maintaining that would 
keep our influence there.
    But I am just alarmed at the rise--and you guys know I am 
right--about the rise of China in there. And it is obvious they 
have almost no restrictions whatsoever and they have no 
compunction about paying leaders large sums of money in order 
to facilitate their advantages.
    And, with that, I yield back to my chairman now.
    Mr. Smith [presiding]. Thank you very much.
    Before we go to the second panel, I would just like to ask 
one final question, and it has to do with--you know, obviously, 
the terrorist threats to many countries and people in Africa 
from Boko Haram to al-Shabaab are very significant.
    And I am wondering how Power Africa integrates protecting 
the infrastructure and, of course, the people, the personnel, 
against terrorist attack, including cyber attacks, which we 
know could be devastating to an electrical power-generating 
grid or any other that is out there. So if you could perhaps 
speak to that issue, protecting and hardening it to terrorism.
    Mr. Elkind. Thank you for the question, Chairman Smith.
    I will defer to my colleagues specifically in relation to 
Power Africa and those engagements there.
    I can tell you that the recognition that we encounter from 
energy companies and energy agencies, ministries, in our 
international engagements to an ever-increasing degree 
recognize the importance of protecting infrastructure.
    One of the things that the Department of Energy does is to 
enter into cooperative engagements with key international 
partners, and we do this at their expense, at the expense of 
the host country, to help them identify vulnerabilities, plan 
their systems, so that they are resilient to any threat.
    It is an all-hazard approach, whether one is talking about 
severe weather, cyber attack, or physical attack and we have 
found that this is an area where the United States is in a 
position to add a tremendous amount of value from our 
experience.
    I will have to defer to my colleagues as to whether that is 
being done in the Power Africa case. I simply don't know the 
answer myself.
    Mr. Postel. Thank you for the question, Mr. Chairman.
    I will double-check, but I believe that some of these 
exchanges, depending on the topics that are of interest to the 
energy regulators, the power pool operators or the utilities, I 
believe some of these exchanges that I will be sending you 
details of have included those kinds of topics.
    The other important thing is just the involvement of the 
private sector because a lot of the private-sector investors 
have a lot of experience in thinking through these risks and, 
when they are investing from offshore, I think, they are 
looking at all risk.
    And that is another avenue in on this topic, which is they 
stand to lose a lot of money if they don't pay attention to 
these topics. And so we also count on them to be very involved, 
working with local folks, to look at that.
    Mr. Smith. But just to be certain, it is not an 
afterthought. It is integrated into planning, development, and 
the like, and as well as implementation?
    Mr. Postel. I want to double-check on that, sir, because I 
don't know if it has been always demand-driven or whether it is 
integrated to, also. I will come back to you with specifics.
    Mr. Smith. I appreciate that. Thank you.
    Mr. Ichord. I would just say that we are in the early stage 
of really developing the electricity grid systems in Africa. We 
have the three power pools--east, west, and south--at their 
different stages.
    I think that, in that process and working with the 
international financial institutions like the World Bank and 
African Development Bank, I mean, there is a lot of 
consideration about the security and reliability issues that 
are going into the development of the loan programs and 
specifications for what kind of systems they can put in place.
    But clearly it is going to be an issue that is going to be 
with us, especially as they begin to invest more and more in 
developing high-voltage transmissions systems.
    Mr. Smith. Now, would the expertise of Homeland Security, 
the Pentagon, or State Department's Diplomatic Security be 
incorporated?
    I say that because, after we got hit in Dar es Salaam and 
in Nairobi, I chaired the hearings for the Accountability 
Review Board after the 1998 terrorist attack, and I will never 
forget when Assistant Secretary Carpenter said that they will 
look for any vulnerability, that nothing is off limits. I am 
paraphrasing, of course. But he sat right where you sat in 1999 
when I chaired the hearings.
    And out of that I wrote the Embassy Security Act, which 
became law, and it added much, the setbacks that Bobby Inman 
had talked about were all finally implemented because they had 
not been implemented for years. And they are still in the 
process, of course, in some of our missions abroad.
    But it was a lesson I learned, you know, that people just 
thought it wouldn't happen here and, you know, let the guard 
down. And, of course, you know, those who wish us ill, these 
nefarious networks, will look for any vulnerability, to use 
your word, which I think is the right word.
    If you could get back to us, if you would, how that whole 
process of protecting--and I am glad you elaborated as well 
that it is not just against terrorism, but it is against 
earthquakes and natural disasters as well, if the subcommittee 
in any way could be helpful, even in promoting more of that.
    Because I think, going forward, they will be increasingly 
at risk. I mean, the terrorists are not foolish. They will look 
for anything which will do maximum damage. So if you could get 
back. But I thank you for your answers as well.
    Ms. Bass, anything?
    Ms. Bass. No.
    Mr. Smith. Anything you would like to say before we 
conclude?
    Mr. Postel. Well, I think I could speak on behalf of my 
colleagues both at the table and in our agencies that we just 
reiterate our thanks to all of you for your leadership and your 
interest. We are not going to collectively solve this challenge 
without your help, and we very much appreciate it.
    Mr. Smith. Well, thank you. It is a partnership. Thank you 
for taking the lead and doing it so effectively. The 
subcommittee, I know members on both sides of the aisle, are 
greatly appreciative of what you have accomplished and will 
accomplish going forward. Thank you.
    I'd like to now welcome our second panel, beginning first 
with Mr. Walker Williams, who is president and CEO of 
Leadership Africa USA and Alternative Marketing Access.
    Mr. Williams is a management consultant with more than 3 
decades of experience working with governments, corporations, 
NGOs, and multilateral institutions. His areas of expertise and 
strategic advice include energy, infrastructure development, 
finance management, and communications. He has worked with the 
U.S. Department of Energy on the first U.S.-Africa Energy 
Ministerial in Morocco and another this past year in Ethiopia.
    I just would note as well Mr. Williams was also 
instrumental in bringing the House and Senate together with the 
African Diplomatic Corps for an historic and now ongoing set of 
meetings that we have had to meet with the African Ambassadors 
and DCMs and others from all of the African countries.
    And I want to thank you for your leadership in making that 
happen.
    We then will hear from Ms. Dianne Sutherland, who has been 
working within Africa for the past 17 years, 13 of those years 
as a resident of Egypt.
    Ms. Sutherland entered the oil and gas publishing business 
in 2001 and, by late 2002, launched what is known as Petroleum 
Africa magazine. In January 2008, she also launched Alternative 
Energy Africa magazine. Additionally, Ms. Sutherland offers her 
services as consultant to Resource Development Financial 
Consultants of Ghana.
    We will be hooking up with her by way of video.
    But, if you would, Mr. Williams, begin with your testimony.

   STATEMENT OF MR. WALKER A. WILLIAMS, PRESIDENT AND CHIEF 
            EXECUTIVE OFFICER, LEADERSHIP AFRICA USA

    Mr. Williams. Thank you, Chairman Smith, Ranking Member 
Bass, Member Stockman. I appreciate greatly this opportunity to 
come before you this afternoon to talk about energy.
    It is something that is of critical importance not only to 
Africa, it is important to the U.S. economy. And I have got 
some prepared remarks I am going to refer to, and I have also 
submitted testimony.
    I am going to take a different take than our first panel 
because I am coming from the civil society side of the ledger. 
And I wanted to take a few moments and talk about Leadership 
Africa.
    We do programs throughout Africa and, before that, I was 
very instrumental in working in the Caribbean on the Caribbean 
Basin Initiative and we worked on AGOA. And I want to say to 
you any NGO or civil society organization working in Africa can 
only implement programs if there is energy and power and 
electricity.
    I mean, we are kidding ourselves. My emphasis has always 
been on education and, if we don't have electricity in the 
schools or we don't have computers, the kids aren't getting an 
education. So, by necessity, we have adopted and started to 
work and move into the energy sector in order to ensure that 
the programs that we put together can be leveraged and can be 
sustainable.
    Now, Chairman Smith referred to some meetings that we did 
several years ago, but the little background on that was the 
African Ambassadors group and they meet regularly, once a 
month, but they were not involved in the deliberations around 
AGOA.
    So 2, 3 years ago we took it upon ourselves to start 
meeting with them informally. And we wanted to hear from the 
African Ambassadors, we wanted to hear from the beneficiaries 
of these programs that we talked about earlier this morning, 
what their take was, what thoughts they had about solutions to 
some of the challenges that are affecting them and that they 
are confronting. And with that in mind, we spent some time 
working on AGOA.
    Now, AGOA is up for reauthorization between now and 
September 15th, and it is a very important initiative. But I am 
going to say here this afternoon that we, as the NGO community, 
we, as civil society--we link AGOA to energy.
    If you don't have energy, you are not going to make the 
kinds of changes and have the kind of productivity that you 
want through AGOA because you can't industrialize. You don't 
have the energy and the power to meet the metrics and solve the 
solution.
    So I am saying to you we link, like the African Ambassadors 
link and like the heads did at the leaders' summit--they link 
AGOA and they link energy. They are two key, key priorities for 
them.
    I want to suggest that, when I mention in my prepared 
remarks references to AGOA, it is because they see AGOA linked 
to energy. We don't do it quite that way, but that is how the 
African Ambassadors and that is how the African heads look at 
those two issues.
    There was reference earlier this morning to the U.S.-Africa 
Energy Ministerial. Well, Leadership Africa had the privilege 
of coordinating that meeting in Ethiopia on behalf of U.S. 
Department of Energy. So I was happy to hear that the U.S. 
Department of Energy and those who attended thought it was 
successful.
    And, yes, we did have 500 participants. We had about 120 
corporations, both U.S. and African companies, participate, and 
it was successful enough that, when I came back, and what I had 
heard in Ethiopia, I have been pushing--and this is the point I 
want to make--that we need follow-up.
    We need consistent, intentional follow-up. We didn't get 
into it to coordinate with the U.S. Department of Energy--and 
we had 13 U.S. agencies participating--without there being 
follow-up. The focus of that was Power Africa. They announced 
Beyond the Grid at that session in Ethiopia, and it is going 
forward.
    But I am going to suggest and pick up on what Ranking 
Member Bass said earlier, that we also need to bring additional 
players to the table. And in my prepared remarks, I talk about 
small, minority, and women-owned businesses, and I talk about 
that in linking them with their counterparts in Africa.
    Now, why do I say that? If you look at what is going on in 
the continent, there is a policy which the African governments 
call ``localization.'' They are saying to our U.S. companies 
that, ``If you really want to work in our country and if you 
are looking for business opportunities in our country, you need 
to find a way to train our local citizens. You need to find a 
way to participate.''
    So it is in our self-interest, and I think there is a nice 
marriage between our small business community and the African 
business community to share, to twin, to work together around 
and under Power Africa and, of course, MCC's program because 
there is a--what we would refer to in the private sector, a 
money sock. And where there is money, you know you are going to 
get paid.
    Then we just need to make sure that these programs 
encourage those companies, our U.S. companies and others, 
reaching out to their smaller business communities to make sure 
there are opportunities for them to participate.
    I also in my prepared remarks talk about something that I 
think needs to be more focused on, and that is what I called 
regionalization. I believe and I have put forward and made 
suggestions that the way to really deal effectively with 
energy, electricity, and power is on a regional strategy, 
working with the regional groupings that are already in place 
in Africa. Because, in some sense, you might find it is easier 
to take electricity from Ghana and ship it into a neighboring 
country than it is to use it internally.
    So I have urged--I have been in conversations with DOE, and 
I think that is a strategy that, if they can find a way to do 
that, it starts to lead to some other things which we call 
trade facilitation. See, electricity is so powerful that, if 
you came to me and said that, ``We are going to have a regional 
approach on electricity,'' it starts to get to trade 
facilitation among the leaders because it is something that 
they all share a need for. You just get them talking and you 
start to break down some of the barriers around working across 
borders and--in terms of these priorities.
    I didn't, as you notice, repeat the statistics. We know 
that over 600 million people in Africa are without electricity. 
We know that Africa needs resources. But the other thing that 
Africa does need, it needs training in capacity development, 
and that is something that the U.S. Government and our agencies 
are very capable of providing and doing.
    We just need to make sure that they continue to work 
together like they are doing with the Power Africa working 
group, which is an excellent program. I am pushing very hard 
for the EAA program, the Electrify Africa program, because it 
sort of stabilizes and puts in place a long-term solution.
    And I am also saying that we need to encourage and listen 
to our African partners. We need to hear from them and we need 
to look at more partnering relationships to maintain our 
competitive advantage.
    You know, when the agencies talk--and I am a little bit 
involved in the industry--the agencies don't control any 
energy. You know, they don't control any oil. And so you really 
do need to find a way to create public-private partnerships and 
be supportive of those entities in the U.S. that do have access 
to these resources and hear from them like I am listening to 
the African Ambassadors and the African heads on what they 
think will help them do a better job and create employment 
opportunities not only here in the U.S., but in Africa.
    And I think, with that, I will defer to my other 
counterpart, if she is here.
    [The prepared statement of Mr. Williams follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                              ----------                              

    Mr. Smith. Mr. Williams, thank you very much for your 
testimony. Without objection, your full statement will be made 
a part of the record.
    I would like to now welcome from Houston, Texas, Dianne 
Sutherland.
    And you are recognized. Please proceed.

  STATEMENT OF MS. DIANNE R. SUTHERLAND, OWNER AND PUBLISHER, 
                   PETROLEUM AFRICA MAGAZINE

    Ms. Sutherland. I would like to extend my appreciation to 
the subcommittee for the invitation to testify at this hearing 
today on Africa's energy future.
    Since entering the African energy industry over 14 years 
ago, I have witnessed a vast transformation in both the 
continent's fossil fuel and alternative energy sectors and, in 
parallel, significant growth in international investments.
    Although Africa holds an abundance of fossil fuels and 
renewable energy resources, the continent is sorely 
underpowered in access to clean, affordable energy. It is a 
luxury to most of its over 1 billion population.
    And despite the continent possessing 6 percent of global 
oil reserves and being responsible for about 10 percent of 
global production, the majority of Africans do not reap the 
benefits of their resources. Many of these underpowered 
countries earn incredible sums of revenue from their 
hydrocarbon, agricultural, and mining sectors, but very little 
is, in turn, invested into power infrastructure.
    The companies opening up Africa's oil and gas potential are 
predominantly small- to mid-size independent firms with limited 
capital. They secure the exploration licenses, conduct the 
geophysical work, and then market their findings to larger 
multinational firms to secure funding and minimize their risk 
when it comes time to drilling.
    This trend has been chiefly responsible for the major 
discoveries over the past 2 decades and the opening up of new 
frontier basins. In the past 10 years, significant oil and gas 
discoveries have been discovered in countries such as Ghana, 
Kenya, Mozambique, Tanzania, Uganda, and others.
    Improved technology deployment has also played a large role 
in enabling these discoveries, with some of Africa's 
developments in the deep offshore rivaling that of those in the 
Gulf of Mexico.
    And while natural gas was not too long ago considered a 
nuisance byproduct in sub-Saharan Africa, the resource is 
increasingly utilized in large-scale operations, such as LNG, 
power generation, trans-border pipelines, and also in smaller 
gas applications, such as LPG and CNG.
    With the known natural gas reserves across north Africa and 
new discoveries in sub-Sahara, the continent is a natural gas 
player to be reckoned with in the future. In Mozambique and 
Tanzania alone, there is reasonable confidence that the two 
areas together hold a resource of at least 190 trillion cubic 
feet with expectations that proven reserves could more than 
double with future exploration.
    And the shale boom is not exclusive to North America. 
Africa, too, has her share of unconventional resources. Shale 
oil, shale gas, and coal bed methane are all now receiving 
attention from both governments and the private sector, and a 
number of projects are afoot.
    As for alternative energy, there are literally hundreds of 
small-scale projects established and in the works, not to 
mention the dozens of larger scale projects on the drawing 
board. These translate into billions of dollars of investment 
for the continent. The sector is making progress with new 
renewable-specific legislation emerging in many countries, 
facilitating development of the industry.
    In addition to the major wind farm and solar projects 
online or under construction in Egypt, Ethiopia, Kenya, 
Morocco, and South Africa, the continent's hydropower resource 
is enormous, with some estimates having it accounting for 12 
percent of the world's potential.
    The Chinese are already heavily invested in Africa's 
hydropower and they are funding $500 million toward Cote 
d'Ivoire's Soubre Dam. Ethiopia is looking to develop 6 
gigawatts of power with its Grand Renaissance Dam, and the 
Grand Inga scheme in the Democratic Republic of the Congo will 
be the world's largest if plans are implemented as envisioned.
    Not to be left out is geothermal. Kenya is said to 
construct new geothermal power plants by December 2015, and, in 
fact, its strategy would make it the number one geothermal 
producer by the year 2033 if executed accordingly.
    And having a near-term tangible impact on improving the 
lives of Africans are the many small-scale off-grid rural 
projects. These projects are varied and include household solar 
products, community waste, energy, rooftop solar and wind, and 
biofuel and biogas applications.
    And perhaps the greatest achievement over the decade has 
been seen in the manufacturing sector with solar factories 
emerging to meet growing regional demand. This trend has lead 
to a technology transfer with Africans learning to provide 
services to their communities.
    In addition, other small projects have allowed typical low-
income villagers to become small business owners and, in turn, 
pass on technology to their communities. This development is 
certainly a success story for the continent by any measure.
    And, in closing, the hydrocarbon and renewable initiatives 
set forth by African governments, as well as by their global 
partners, are paying huge dividends. While much progress has 
been made, there is a long road ahead to bring Africans up to a 
first world standard of living, and American know-how and 
investment can play a major role in making that happen.
    Thank you.
    [The prepared statement of Ms. Sutherland follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                              ----------                              

    Mr. Smith. Ms. Sutherland, thank you very much for your 
testimony and for your insights and your expertise.
    I would like to now yield to Ms. Bass.
    Ms. Bass. And thank you. I appreciate you going out of 
sequence for a minute. I really just wanted to ask a couple of 
questions.
    But I first want to address my colleague, Representative 
Stockman, you know, your concerns that you were raising about 
China.
    And I think one of the first things that we can do, 
hopefully before lame duck is over, is take care of two things, 
the Power Africa that is over in the Senate and then also AGOA.
    You know, I mean, because to the extent that we can 
increase our participation--because I know I have heard from 
many, many African countries how much they do want to do 
business with us, but, you know, sometimes we put our own 
roadblocks up.
    Mr. Stockman. Exactly.
    Ms. Bass. Exactly.
    So, Mr. Williams, I just wanted to ask--I was asking the 
first panel about Power Africa and its reach into urban areas, 
in the residential areas, not the commercial, and, also, in the 
rural areas.
    And you, you know, representing civil society, I just 
wanted to know your take on the same question I had asked the 
first panel.
    Mr. Williams. Well, I believe--and it is anecdotal, to some 
extent--but I do believe, having come out of the U.S.-Africa 
ministerial and looking at the effective role and the amount of 
discussion that we talked about with grids, mini grids, and 
getting electricity into rural areas.
    And then, at the leaders' summit, I attended a session that 
GE put on called Africa Rising, and there were many, many 
entrepreneurial-type things. By ``entrepreneurial,'' I mean 
they are sustainable.
    In other words, they were going into rural communities and 
creating opportunities for young people to supply electricity 
and make a little bit of money to keep it going and keep their 
incentives up.
    So it is happening and it--and it could be expedited, but 
it is happening and it is part of--when you get to Beyond the 
Grid, part of the Power Africa agenda to expand this.
    Ms. Bass. Thank you.
    And maybe, Ms. Sutherland, you would like to respond to 
that as well.
    Ms. Sutherland. I am sorry. I thought the question was 
addressed to my colleague. Can you repeat that again, please.
    Ms. Bass. Oh, yeah. It was, but it was to you, too.
    I was just wondering your opinions on how Power Africa and 
our efforts of reaching beyond commercial areas and going into 
urban residential and rural areas.
    Ms. Sutherland. I am not that familiarized with that aspect 
of the industry, as my focus is on the petroleum industry.
    However, I do know that the African communities do 
appreciate American investment. There is absolutely other 
investment available to them from the likes of China, but they 
do like dealing with the Americans better.
    And I know that there are several small-scale projects 
emanating from the United States supplying off-grid solutions 
such as, you know, the solar lanterns, replacing the kerosene, 
the clean cooking stoves, and they are really quite receptive.
    Ms. Bass. Thank you.
    Mr. Smith. I will go out of order and I will recognize Mr. 
Stockman. Then I will go third.
    Mr. Stockman. Yeah. I am glad you are from Houston. I 
represent Houston, and, as you know, fracking was a critical 
part of George Mitchell's portfolio, and I think that he really 
changed and revolutionized the world when he developed the 
advanced fracking.
    And I think we lost her. That's okay.
    I would like to ask, Mr. Williams, on our side, you are 
free market. Can you be blunt enough to tell me how is it that 
we are impeding, in what ways we can undo something to make it 
more beneficial for both sides.
    I mean, how is the Government--you know, a lot of times we 
have passed laws here that had very well-intended meaning, but, 
ultimately, it ends up impacting your industry or other 
industries, quite frankly, in a negative way. And I would like 
to know what laws we passed that were meant to be for good that 
are not.
    Mr. Williams. Well, in response and to be undiplomatic, I 
mean, I don't think anyone ever passes a law that they don't 
think it is not going to work the way they intend it to work. 
So we will start with that premise.
    The thing that I feel that we miss out on is that we don't 
really listen to the beneficiaries. I am talking about in the 
U.S. The U.S. has great reach. If I was to ask an African 
energy minister, to pick up your conversation about China, who 
they would like to work with, unanimously it would be with the 
United States.
    But we do put in place not the law, but then it is the 
policy, how the law is going to be implemented, that creates 
obstacles. And the obstacles, in a global economy--now, 
remember, oil is a global economy, supply and demand. And so no 
one country really can control that whole industry.
    But if--so if we put up--if we put obstacles up, it goes to 
where there are less obstacles or they can get what they 
consider to be a fairer shot, but the preference--for instance, 
if an energy minister comes here and they want to work on 
something and they would prefer to work with the U.S. 
Department of Energy, oftentimes they have to go the State 
Department. And then that means they have to involve their 
Minister of Foreign Affairs, and they would prefer to keep it 
in the house--the energy house.
    So some of the things that we do create obstacles for us 
going forward. And then there are issues within some of our 
agencies where we can't be as supportive as the private sector 
would like because of regulations that are in place and the 
agencies themselves don't want to necessarily show favoritism 
to Company A over Company B. And so, in some respects, the 
playing field is not level and our industries don't get the 
benefit of what we could do.
    Mr. Stockman. Yeah, we can just look at--and no offense to 
the State Department, the previous panel, but you can look at 
the time and length it has taken just to discuss a pipeline 
here in the United States.
    Mr. Williams. Yeah.
    Mr. Stockman. And it is unfortunate that the State 
Department is interceding in free commerce, but I see it 
repeatedly. As you know, this is years ago, I met with the 
DRC's energy minister, and that was a complaint back 15, 18 
years ago, and it hasn't been resolved. And I am not going to 
be here in January. I want to work as an intern for Congressman 
Smith, but my hope is that we can do some kind of legislation 
to where we step back and allow companies to work together.
    And it is absolutely true, by the way, they do want to work 
with American companies. They feel like we get a fair shake 
from Americans. They also, Americans do something that the 
Chinese don't; the Americans will employee local labor and 
train them in the technologies and the skills, and they even 
invest in infrastructure. They love that. But the Chinese are 
more parochial. They will bring in their own labor, as you 
know, and their own labor is almost, in itself, they are locked 
up, and they don't even get to intermingle.
    So I would request, if you have time or you can 
administratively get us back some of the policies you think--
and you don't have to be diplomatic. It is just you, me, and 
Connie Chung, we will keep it secret. If you can get us some of 
the things that Congressman Smith down the road could 
facilitate where we are doing a better job of trying to help 
our industries, I would appreciate that. I think some frankness 
would be in order here.
    Mr. Williams. Well, you know, take Power Africa, again. I 
mean, you just don't say I want to turn on that switch. I mean, 
it takes years to develop some of these infrastructure 
projects. But the country needs the electricity now.
    Mr. Stockman. Yes.
    Mr. Williams. And we have a lot of technology we can come 
in and drop, almost instant generators and tie it right into 
the grid and start to feed it while we are building out the 
more permanent, sustainable power supply. So I mean, there are 
a lot of things, and I am happy to respond to you with some of 
those kind of shortcut thoughts that I have about how we can be 
more effective.
    Mr. Stockman. I am so on your side. I go nuts when I go 
visit there because I really want to help them. I have great 
compassion for them and they want what the rest of the world 
wants, and yet I see time and time our Government is 
interceding in a way that is disruptive and harmful for the 
very people we claim to want to help. And I just am thrilled 
that you have dedicated your life to this, and I really 
appreciate the sacrifices you have made. And I apologize for 
the bureaucracy and the inconsistency from our side.
    Mr. Williams. Well, I appreciate that, but I also want to 
say, I got a lot of help from the U.S. side. Don't get me 
wrong.
    Mr. Stockman. Well, I know that, but----
    Mr. Williams. And I have come and I have knocked on the 
door and I have received some help.
    Mr. Stockman. But we can do better.
    Mr. Williams. Okay.
    Mr. Stockman. When I go there and I hear privately some of 
the conversations I hear from their side, their government 
officials, it is--excuse my expression--but I am really--I used 
profanity there, consider it used--I am really upset that we 
are, time and time again, shooting ourselves in the foot.
    With that, I yield back to the chairman.
    Mr. Smith. Mr. Stockman, thank you very much.
    Just a few final questions and, Mr. Williams, thank you 
very much for your testimony and again for your leadership.
    Can you tell us, do you have any insight as to how the 
participants, especially nongovernment actors were selected for 
the ministerial? You made a very good point about the 
importance of Power Africa, having Diaspora and women-owned 
businesses involved. And I am wondering, who does the 
selection? Is it self-selection, people know that it is coming 
and they get themselves onto a list and then have access, or is 
it by invitation only?
    Secondly, the issue--and I will ask this of Ms. Sutherland 
when she gets back on, but you might want to speak to it as 
well--for most of my career in Congress, I have been in 
Congress for 34 years now. I have been an ardent proponent of 
waste-to-energy initiatives, believing that it obviously takes 
care of municipal garbage while it also produces clean energy, 
and with modern technology being what it is, what it comes out 
of, that smokestack at the end of the day is as pristine as it 
possibly can be. It is not always perfect, obviously, but with 
the right controls and the right environmental safeguards, it 
is cleaner.
    And we know that, you know, as a continent and the 
countries matriculate to being an industrialized continent or 
nation, people want to cut corners. There is going to be much 
waste. Industrial waste is one thing but municipal waste will 
grow in number. And what do you do with it?
    And I am wondering how well you think Power Africa is 
incorporating the waste-to-energy initiatives as a way of 
powering up Africa as part of a mix.
    And let me also ask you, you know, I did ask the earlier 
panel, and I think they will get back with some insights, but I 
am very worried about cybersecurity issues and about terrorism. 
It doesn't take much if improper safeguards are not followed, 
whereby a whole infrastructure can be demolished very, very 
quickly.
    And Ms. Sutherland, I guess she's still not on, but she had 
spoken about China, and we all know that China demands a great 
deal of repayment, usually. I mean, in Ghana they get the oil 
and have access to that oil. We know that countries like Sudan 
and others, very often weapons are in the mix in exchange for 
their raw materials, especially oil there.
    And I am wondering, you know, if you feel we have competed 
well enough with the People's Republic of China to say, as both 
my good friend, Mr. Stockman, and others have said, the 
Africans and you as well want to deal with the United States of 
America and with our private sector as well. But if we are not 
in the game, who do they turn to? They turn to the Chinese. 
Have we turned to corner, or are the Chinese still outcompeting 
us on the continent?
    Mr. Williams. Thank you, Mr. Chairman. For your first 
question on the U.S.-Africa Energy Ministerial, Leadership 
Africa was responsible for the outreach in the marketing of 
that event that took place in Ethiopia. The U.S. Department of 
Energy handled the government agency participation, those 
agencies who did come to Ethiopia to participate.
    Now, I can tell you, intentionally, we reached out to 
everybody. We went to Commerce Department. We got lists from 
all of the agencies, and small businesses, large businesses, so 
we made it inclusive, and then we made it easy for even the 
African businessmen to attend, and we had different price 
referential so that they had to pay something, but it was a 
pittance, so that we made sure that it was a meeting that had 
both African and U.S. businesses participating and benefiting. 
So it was on us, if there is complaints about who could not 
come, who couldn't get there, it is on Leadership Africa USA.
    Your second question was waste-to-energy. We have seen, 
over the years, because we are an NGO, a number of waste-to-
energy projects that work in rural communities, where there is 
the collection now of waste and it is the co-generation of 
waste to turning it into energy. They are very effective, 
particularly with plastic. You will find it in Egypt. There is 
a huge project going on.
    In fact, we were working with another NGO and they had a 
competition on an annualized basis. And a lot of the people who 
won those competitions were dealing with energy but they were 
dealing with removing waste, and it was at the university 
level. So, I mean, it is attractive to young people but it is 
attractive for young people in rural communities, if they can 
clean up their communities and also have some money coming from 
that and it generates electricity. It is a win-win for 
everybody.
    Mr. Smith. Just a couple of final questions, and then, Mr. 
Stockman, do you have anything to conclude?
    Dr. Ichord, in response to my question about gaps, listed 
five. One of them was the urban subnational part and I asked 
whether or not we are reaching out to state and local 
governments, and he said that is becoming more and more 
important. And I wonder if you might want to speak to that, 
obviously we should work with the central government but we 
shouldn't be capital-centric. Look to those other key players. 
You might want to expand upon that.
    And the competition with China, if you could touch on that 
one.
    And finally, how do we measure success? You know, will we 
know it when we see it, or are there metrics that can be 
employed to say, okay, we have now seen such and such number of 
municipalities and people gain access to electricity? Does 
anybody have a backdrop in mind to determine whether or not we 
are succeeding in this effort?
    Mr. Williams. Okay. Picking up on the China question.
    Mr. Smith. Yes.
    Mr. Williams. It is the glass is half-full/half-empty kind 
of a thing. China has a totally different system than we have. 
They go at it differently. I mean, when you are talking to a 
company that says we are a Chinese company, you don't know if 
it is a Chinese company or if the company is partially owned by 
the government or representing the government. So when you put 
our companies into that mix, it is hard to compete.
    And then there was reference earlier to the Foreign Corrupt 
Practices Act and clarification and clarity on what, when you 
are working within the bounds, everyone wants to work within 
the bounds so that you are very clear that the activities that 
you are undertaking are not going to put you afoul of that law 
would be very helpful. We can overcome what I think is China's 
vast amount of financing that they have available because we 
really make better partners. We are there for the long run. And 
I think that the African governments understand that.
    And we need to work--to pick up on your second question--we 
need to move it out of the leadership in the heads of the 
ministries and the government officials and move it into a 
level where we are talking to the business people who, like 
business people here, can go talk to the government but they 
need the support and the help and assistance that we could 
provide them.
    Mr. Smith. I see Ms. Sutherland is back so I just would ask 
her: You mentioned the Cote d'Ivoire issue in China. So a more 
general question would be, how well or poorly are we competing, 
in your opinion, with Chinese initiatives?
    And you had also mentioned the waste-to-energy, which is 
something that I just asked Mr. Williams before you came back 
on. How widespread are those projects, which obviously do two 
great things at one time, produce energy but also take care of 
a municipal waste problem? Landfills, as we all know, are 
ticking time bombs because of what they do to aquifers and to 
water systems as they leach.
    So if you could respond to those two, I would appreciate 
it.
    Ms. Sutherland. Okay. As far as how are we competing with 
China, we are competing pretty well with China; however, as 
others have mentioned, the transparency issue is very big in 
Africa, but there are only, I believe, 17 or 18 countries who 
have signed up to the EITI. So for those who have not yet 
signed up to it or who have not met the requirements to be 
approved, Chinese money is very attractive and it comes with 
very little strings attached to it. And that is just a fact. It 
is very attractive to some African governments.
    On the other hand, Chinese technology, while it has vastly 
improved over the last decade, is still lagging behind American 
technology. And many of the savvier national oil companies in 
Africa would much rather prefer to work with American services 
firms and oil and gas exploration companies.
    As regards to waste-to-energy, projects are popping up all 
over the continent. They are small-scale and medium-scale. I 
know of one project, it is waste-to-energy that comes from a 
prison facility and that waste-to-energy powers that facility. 
There is also animal-waste-to-energy as well as municipal-
waste-to-energy. So municipal-waste-to-energy has very high 
potential in the continent, and I believe you will see many 
more projects cropping up as investment comes along and the 
technology transfer is made to these countries.
    Mr. Smith. Thank you so very much for coming back online 
and----
    Ms. Sutherland. Sorry about that. Technology fails us 
sometimes.
    Mr. Smith. Let me just ask you, hydropower is still a major 
factor in African energy planning but major projects such as 
Ethiopia's Grand Renaissance Dam have regional implications 
that make it politically difficult. How do countries such as 
Ethiopia and Egypt deal with conflicts over such major power 
and water projects? First, give me your background in Egypt.
    Ms. Sutherland. It is basically a governmental power play. 
I don't think that the Ethiopia project would have made it as 
far as it has if it weren't for the Arab Spring and, you know, 
the resulting multiple governments and disarray in Egypt. 
Generally, I think that you would have seen that project not 
advance as far as it has. Had Egypt not had its difficulties, 
it would probably still be a debate amongst the countries, I 
would say, for several years to come. And that being said, you 
may find Egypt in the not-too-distant future trying to go in 
and circumvent the progress that has been made.
    Mr. Smith. And one final question to both of you: 10 years 
from now, can you make any kind of guesstimate or projection as 
to how many people on the continent will have access to 
electricity?
    Ms. Sutherland. In the next decade?
    Mr. Smith. Yes.
    Ms. Sutherland. I don't see a huge increase. I would say 
maybe a 15 percent increase in the next decade if the major 
alternative energy projects come to fruition, such as the 
geothermal and the hydropower.
    Mr. Smith. Okay. Mr. Williams?
    Mr. Williams. Well, the statistics that I--I have to share 
her assessment----
    Mr. Smith. Right.
    Mr. Williams [continuing]. That there is not going to be a 
substantial number of people who will have access to 
electricity in Africa if we stay on the current level that we 
are on right now. It is estimated by 2040 you still may have 
500 million people on the continent without electricity.
    Mr. Smith. And it is 590 million right now, right?
    Mr. Williams. Yeah.
    Mr. Smith. Approximately. Thank you. That means we need to 
accelerate and beef up our efforts, and I think we end on that 
point.
    Anything you would like to add, Mr. Williams, before we 
end?
    Mr. Williams. No, I just want to thank you for the 
opportunity and the privilege to be here and to testify. I am 
hopeful that some of the things that I said and I will be back 
to you and hope to--and applaud your leadership, both you and 
Congressman Stockman. Thank you so much.
    Mr. Smith. Thank you.
    Mr. Stockman. Thank you very much.
    Mr. Smith. The hearing is adjourned, and thank you very 
much.
    Mr. Williams. Thank you.
    [Whereupon, at 3:14 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

              <F-dash>\<Hoarfrost><acctof><careof>t<star> 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


          <F-dash>\<diamond>ass <because><F-dash><Register>s\
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

              <F-dash>\<Hoarfrost><acctof><careof>t<star> 
                     <F-dash><func.-of><Register>\

   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
